<html>
<title> - [H.A.S.C. No. 115-113] SPACE SITUATIONAL AWARENESS: WHOLE OF GOVERNMENT PERSPECTIVES ON ROLES AND RESPONSIBILITIES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                                     
 
                         [H.A.S.C. No. 115-113]

                      SPACE SITUATIONAL AWARENESS:

     WHOLE OF GOVERNMENT PERSPECTIVES ON ROLES AND RESPONSIBILITIES

                               __________

                             JOINT HEARING

                               before the

                    SUBCOMMITTEE ON STRATEGIC FORCES

                                 of the

                      COMMITTEE ON ARMED SERVICES

                          meeting jointly with

                         SUBCOMMITTEE ON SPACE

                                 of the

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                          [Serial No. 115-66]

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             JUNE 22, 2018

                                     


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 33-386                  WASHINGTON : 2019       

                                     
  

                      COMMITTEE ON ARMED SERVICES
                    SUBCOMMITTEE ON STRATEGIC FORCES

                     MIKE ROGERS, Alabama, Chairman

DOUG LAMBORN, Colorado               JIM COOPER, Tennessee
DUNCAN HUNTER, California            SUSAN A. DAVIS, California
MO BROOKS, Alabama                   RICK LARSEN, Washington
MICHAEL R. TURNER, Ohio              JOHN GARAMENDI, California
MIKE COFFMAN, Colorado               BETO O'ROURKE, Texas
BRADLEY BYRNE, Alabama               DONALD NORCROSS, New Jersey
SAM GRAVES, Missouri                 COLLEEN HANABUSA, Hawaii
JODY B. HICE, Georgia                RO KHANNA, California
PAUL MITCHELL, Michigan
                Sarah Mineiro, Professional Staff Member
                         Leonor Tomero, Counsel
                         Michael Gancio, Clerk
                                 ------                                
              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair

FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         ZOE LOFGREN, California
MO BROOKS, Alabama                   DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             SUZANNE BONAMICI, Oregon
BILL POSEY, Florida                  AMI BERA, California
THOMAS MASSIE, Kentucky              ELIZABETH H. ESTY, Connecticut
RANDY K. WEBER, Texas                MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           DONALD S. BEYER, Jr., Virginia
BRIAN BABIN, Texas                   JACKY ROSEN, Nevada
BARBARA COMSTOCK, Virginia           CONOR LAMB, Pennsylvania
BARRY LOUDERMILK, Georgia            JERRY McNERNEY, California
RALPH LEE ABRAHAM, Louisiana         ED PERLMUTTER, Colorado
GARY PALMER, Alabama                 PAUL TONKO, New York
DANIEL WEBSTER, Florida              BILL FOSTER, Illinois
ANDY BIGGS, Arizona                  MARK TAKANO, California
ROGER W. MARSHALL, Kansas            COLLEEN HANABUSA, Hawaii
NEAL P. DUNN, Florida                CHARLIE CRIST, Florida
CLAY HIGGINS, Louisiana
RALPH NORMAN, South Carolina
DEBBIE LESKO, Arizona
                                 ------                                

                         SUBCOMMITTEE ON SPACE

                     HON. BRIAN BABIN, Texas, Chair

DANA ROHRABACHER, California         AMI BERA, California, Ranking 
FRANK D. LUCAS, Oklahoma                 Member
MO BROOKS, Alabama                   ZOE LOFGREN, California
RANDY HULTGREN, Illinois             DONALD S. BEYER, Jr., Virginia
BILL POSEY, Florida                  MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           DANIEL LIPINSKI, Illinois
BARBARA COMSTOCK, Virginia           ED PERLMUTTER, Colorado
RALPH LEE ABRAHAM, Louisiana         CHARLIE CRIST, Florida
DANIEL WEBSTER, Florida              BILL FOSTER, Illinois
ANDY BIGGS, Arizona                  CONOR LAMB, Pennsylvania
NEAL P. DUNN, Florida                EDDIE BERNICE JOHNSON, Texas
CLAY HIGGINS, Louisiana
LAMAR S. SMITH, Texas
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Rogers, Hon. Mike, a Representative from Alabama, Chairman, 
  Subcommittee on Strategic Forces, Committee on Armed Services..     1

                               WITNESSES

Bridenstine, Hon. James F., Administrator, National Aeronautics 
  and Space Administration.......................................     2
Hyten, Gen John E., USAF, Commander, United States Strategic 
  Command........................................................     1
Ross, Hon. Wilbur, Secretary of Commerce.........................     3

                                APPENDIX

Prepared Statements:

    Bridenstine, Hon. James F....................................    69
    Babin, Hon. Brian, a Representative from Texas, Chairman, 
      Subcommittee on Space, Committee on Science, Space, and 
      Technology.................................................    54
    Hyten, Gen John E............................................    59
    Ross, Hon. Wilbur............................................    76
    Smith, Hon. Lamar, a Representative from Texas, Chairman, 
      Committee on Science, Space, and Technology................    49

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Coffman..................................................    83
    Mr. Hunter...................................................    84
    Mr. Mitchell.................................................    85
      

                      SPACE SITUATIONAL AWARENESS:

                    WHOLE OF GOVERNMENT PERSPECTIVES

                     ON ROLES AND RESPONSIBILITIES

                              ----------                              

        House of Representatives, Committee on Armed 
            Services, Subcommittee on Strategic Forces, 
            Meeting Jointly with the Committee on Science, 
            Space, and Technology, Subcommittee on Space, 
            Washington, DC, Friday, June 22, 2018.

    The subcommittees met, pursuant to call, at 9:01 a.m., in 
room 2118, Rayburn House Office Building, Hon. Mike Rogers 
(chairman of the Subcommittee on Strategic Forces) presiding.

 OPENING STATEMENT OF HON. MIKE ROGERS, A REPRESENTATIVE FROM 
      ALABAMA, CHAIRMAN, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Rogers. Good morning. I want to thank Chairman Babin 
and Ranking Member Bera for their interest and cooperation in 
organizing this joint hearing to discuss space situational 
awareness in a whole of government context.
    I also appreciate the interest expressed by members of the 
House Armed Services Committee and the Committee on Science, 
Space, and Technology more broadly, and, therefore, ask 
unanimous consent that non-subcommittee members be allowed to 
participate in today's hearing after all subcommittee members 
have had an opportunity to ask questions. Is there objection?
    Hearing none, so ordered.
    Non-subcommittee members will be recognized at the 
appropriate time for 5 minutes.
    Given that we have an excellent panel of witnesses and lots 
of member interest, I will ask unanimous consent to include 
into the record all member statements and extraneous material.
    Without objection, so ordered.
    Today we will hear from an excellent panel of witnesses on 
SSA [space situational awareness], including the Honorable 
Wilbur Ross, Secretary of Commerce; the Honorable Jim 
Bridenstine, no stranger to this room or this subject matter, 
Administrator, National Aeronautics and Space Administration; 
and another person who is no stranger to this room, General 
John Hyten, Commander, United States Strategic Command.
    I will turn it over to you for your brief opening 
statements and then we will roll straight into questions.
    General Hyten, start with you.

STATEMENT OF GEN JOHN E. HYTEN, USAF, COMMANDER, UNITED STATES 
                       STRATEGIC COMMAND

    General Hyten. Thank you, Chairman Rogers, Babin, Smith, 
the three chairmen, Ranking Members Cooper, Bera, Johnson, 
distinguished committee members, all of you. It is an honor to 
be here today with Secretary Ross and Administrator 
Bridenstine. It is kind of difficult not to say Congressman 
Bridenstine, but he is on this side of the table, which is 
interesting.
    So it is always a privilege to be here, and it is a 
privilege to represent the 162,000 Americans that accomplish 
the missions of my command every day. So I would like to thank 
both committees for your enduring support to our Nation's 
defense and in particular for your work on our national space 
policy.
    My command, U.S. Strategic Command, is a global warfighting 
command. We set the conditions across the globe as the ultimate 
guarantor of our national and allied security, and our missions 
are to deter strategic attack and employ nuclear, space, global 
strike, joint electronic warfare, and missile defense forces as 
directed.
    To do this, we rely on timely and accurate information 
about the operational environments we operate in. Space is one 
of those environments and it is no different than any other. 
Space situational awareness is how we bring together the 
multisource data needed for space control and to assess 
adversary intentions.
    Our national security mission demands that we make the 
space environment as safe as possible to operate in, and that 
has led to our current sharing arrangements. Today, we take our 
space situational awareness data and make it available for 
space safety, but it is not an inherent mission of Strategic 
Command or the Department of Defense. And I have never believed 
the Department of Defense should have to perform that space 
traffic management for the world. We do that because we need to 
do it.
    So for a while now I have advocated to move space traffic 
management to another agency while retaining the Department of 
Defense--in the Department of Defense the essential elements of 
space situational awareness needed for our national security. 
So I believe transition is a good idea, and I support the 
actions taken by the President on Monday to designate the 
Department of Commerce as that lead. It is the right move, and 
I commit to work with the administration, the Department of 
Congress and the Congress--the Department of Commerce and the 
Congress to meet the President's space traffic management 
goals.
    So thank you again, Mr. Chairman, for the opportunity to be 
here. I look forward to your questions.
    [The prepared statement of General Hyten can be found in 
the Appendix on page 59.]
    Mr. Rogers. Thank you, General.
    The Chair now recognizes Administrator Bridenstine.

STATEMENT OF HON. JAMES F. BRIDENSTINE, ADMINISTRATOR, NATIONAL 
              AERONAUTICS AND SPACE ADMINISTRATION

    Mr. Bridenstine. Chairman Cooper, Chairman Smith, Chairman 
Babin, Ranking Member--or I should say Ranking Member Cooper 
and--Chairman Rogers, I should say, Ranking Member Cooper and 
Ranking Member Bera, it is great to be back. Thank you so much 
for having me here. It is an honor to represent NASA here 
before the Strategic Forces Subcommittee and the Space 
Subcommittee here in the House of Representatives.
    NASA has, of course, very important equities when it comes 
to space situational awareness and space traffic management. Of 
course, we have the Human Space Flight Program, and we have 
dozens of satellites that are delivering critically important 
science for our Nation and, in fact, for the entire world. So 
we have a big stake in making sure we get right space 
situational awareness and space traffic management.
    For objects that are big enough to track--of course, we 
don't do the tracking ourselves and we don't keep a catalog 
ourselves. We rely on the Strategic Command for that through 
the JSpOC [Joint Space Operations Center], but the data that we 
receive from the JSpOC we analyze very closely to make sure 
that our human space flight activities and our robotic space 
flight activities are protected and that they remain safe. So 
this is critical for us.
    Objects that are too small to track, NASA has a department, 
the Orbital Debris Program Office, that is responsible for 
characterizing that orbital debris, and we characterize it 
specifically so that we can model ultimately the risk from 
these very small pieces of debris that are not trackable. And I 
will be clear, the biggest risk is from objects that are not 
trackable. That is the biggest part of what we deal with every 
day when it comes to protecting our assets in space.
    And so we characterize, you know, where those debris fields 
are and ultimately how they could impact our missions and make 
assessments how much do we need to invest to shield our assets 
and/or maybe operate in different orbital regimes.
    So this is important to NASA. I look forward to working 
with this committee. I look forward to following the--
implementing I should say Space Policy Directive-2 and Space 
Policy Directive-3 from the President that gives these new 
activities to the Department of Commerce.
    So, with that, I look forward to working with everybody 
here and thank you for having me.
    [The prepared statement of Mr. Bridenstine can be found in 
the Appendix on page 69.]
    Mr. Rogers. Thank you, Mr. Bridenstine.
    Secretary Ross, you are recognized.

      STATEMENT OF HON. WILBUR ROSS, SECRETARY OF COMMERCE

    Secretary Ross. Good morning. Thank you, Chairman Rogers, 
Chairman Babin, Ranking Members Cooper and Bera, and both 
subcommittees, for allowing me to address you today. I would 
also like to thank Chairman Lamar Smith, Chairman Thornberry, 
and Ranking Members Johnson and Smith for your work on this 
important issue. Your continued support of this 
administration's space policy vision is greatly appreciated.
    In addition, I thank my esteemed colleagues General Hyten 
and Administrator Bridenstine for joining me on this panel. It 
is a pleasure to work with all of you--decision makers, 
leaders, and enablers of U.S. space commercial and defense 
policy. Your work is imperative to the future achievement and 
well-being of the United States.
    The Trump administration and the Department of Commerce are 
creating more opportunities for the space community to develop 
and thrive. In just 6 months, President Trump has signed three 
Presidential space directives. The first calls for human 
expansion across the solar system. It is about time. The second 
sets a schedule for streamlining regulations to unshackle 
commercial activity in space.
    Commerce is already advancing ambitious regulatory reform. 
Over the last year, we have worked with Department of Defense, 
State, Department of the Interior, and the Director of National 
Intelligence to reduce commercial remote sensing application 
timelines by about 50 percent from where they were before. We 
have cut what was 210 days down to an average of 91 days.
    The President's third space policy directive, signed at 
this week's Space Council meeting, establishes the country's 
first comprehensive national space traffic management policy. 
The directive emphasizes safety, stability, and sustainability, 
foundational elements to successful space activities, and it 
names Commerce as the new U.S. Government interface for space 
traffic coordination.
    This new policy directs the Department to provide a basic 
level of space situational awareness data for public and 
nonpublic use, based on the space catalog compiled by the 
Department of Defense [DOD]. This change will better enable DOD 
to focus on its national security mission.
    Commerce is eager to provide that service to industry, to 
facilitate continued commercial development in outer space. As 
the friend-of-business agency and not a typical old-fashioned 
regulator, we are the perfect agency for the job. Unlike in 
past generations, activity in space is becoming largely 
commercial. Commerce already engages with private space 
companies on export control, spectrum issues, remote sensing 
licensing, and trade promotion. And we already manage, with 
NASA's great support, the government's largest operational 
civil satellite fleet, 14 NOAA [National Oceanic and 
Atmospheric Administration] satellites and 4 for the Air Force. 
We also have the National Institute of Standards and 
Technology, which has a proven track record of working with 
industry to conduct research and to define scientific standards 
for business needs.
    We are looking forward to taking on this new role of space 
traffic coordination. The need for timely and accurate and 
actionable SSA data and STM [space traffic management] services 
has never been greater. DOD currently observes well over 20,000 
objects circling the Earth, many of which are softball-size or 
larger pieces of man-made space debris. These objects fly 
around Earth at dangerous speeds of up to 17,500 miles per 
hour, about 10 times the speed of a small bullet. Even more 
concerning are the estimated 600,000 smaller objects that could 
still cause significant harm if a collision occurred.
    Congestion in space will only increase. In the next few 
years, the number of American satellites in space will likely 
grow from 800 to over 15,000. As more and more objects get 
launched, effective space traffic coordination and orbital 
debris mitigation standards will help promote our Earth's 
orbits from further congestion.
    With the growth of space commerce and DOD's focus on 
national security, President Trump and the National Space 
Council determined that Commerce should become the new civil 
agency interface. With this role, Commerce can incentivize 
innovative space services, based on an open architecture data 
repository. This repository will establish a mechanism for SSA 
data sharing that will enable/enhance STM services that will 
empower greater industry-provided data and services. 
Involvement by industry, academia, and other stakeholders is 
paramount to the success of this endeavor, and it will take a 
whole of government approach to face this challenge.
    Working with NASA and DOD, Commerce is committed to 
facilitating these discussions and implementing their results 
so that the United States can provide global leadership for 
space traffic standards. America must continue to be the leader 
in space. Space traffic coordination is an important task, and 
Commerce has dedicated serious deliberation and planning in its 
execution. We have an excellent relationship with our partners 
and we will continue working with them to carry out the 
implementation plan approved by the National Space Council.
    The administration is setting clear milestones and will be 
transparent about achieving them. Commerce takes on this new 
responsibility with several goals in mind. We will be dedicated 
to creating economic growth and sustainable development in all 
industry sectors.
    Facilitating space traffic coordination will provide the 
space industry with more tools to be successful. Commerce will 
also work with industry to find ways to enhance space traffic 
coordination data and be more adaptive to industry concerns.
    Working with DOD, we will evolve the architecture that 
currently supports U.S. Strategic Command to be even more 
responsive to the space industry's needs. And we look forward 
to working with Congress to protect a safe space environment 
for future commercial growth.
    With Commerce at the helm of commercial space traffic 
coordination, we will ensure that the growing space industry 
remains open for business, and America will continue to be the 
flag of choice for space commerce.
    I will be happy to respond to any questions you may have. 
Thank you.
    [The prepared statement of Secretary Ross can be found in 
the Appendix on page 76.]
    Mr. Rogers. Thank you, Mr. Secretary.
    I thank all the witnesses for being here and for those 
thoughtful opening statements and for what you do for our 
country.
    I recognize myself for the first set of questions.
    General Hyten, I fully support the President's directive on 
space management policy, but I do want to make sure that I am 
clear on this, and I think you touched on it in your opening 
statement.
    Given that space is clearly now recognized as a warfighting 
domain, are you saying that you don't believe that this unique 
DOD SSA requirements can only be met by the military, that you 
believe that they can be effectively met by nonmilitary 
efforts?
    General Hyten. So the--I really need to be specific on 
that, because we have to do the space situational awareness 
mission inside Strategic Command, inside the Department of 
Defense for the missions that we have to do for national 
security space.
    Mr. Rogers. And that will continue?
    General Hyten. That will not change. That will not change 
for as far as I can see into the future, because we have to 
know that information in order to defend ourselves against 
potential threats. That is why we started doing this business 
back in the Cold War days to begin with.
    So we are going to continue that, but we don't have to be 
the public face to the world for--that is what the new decision 
is, to have the Department of Commerce be the public face to 
the world.
    Mr. Rogers. That is what I wanted to make clear, and I 
appreciate that.
    Mr. Secretary, you are right about the activity up there. 
In addition to this roughly 620,000 pieces of debris that you 
and the administrator have talked about, we have a lot of 
activity going up and going to continue to be that way. You 
talked about 600 or so, 600 to 800 satellites now and going 
toward 15,000.
    I know of Boeing and SpaceX in this country that are each 
talking about putting constellations up for broadband 
capability that can be as many as 2,000 or 3,000 satellites 
each, just small sats. And I know there is at least one Indian 
company that is doing the same thing, a couple thousand. That 
is just going to proliferate, and I have been very concerned 
about how we are going to manage that.
    Tell me exactly how you see this working as far as that 
traffic management and, more importantly, the debris mitigation 
that you made reference to. I would open that up for either one 
of the two of you.
    Secretary Ross. Well, we already are dealing a lot with 
some of these issues through NOAA, because of its satellites. 
So we have people already somewhat familiar with this sector. 
We have planned to send initial delegations out to Vandenberg, 
out to Omaha to start learning more about the specifics that 
would be involved. And we are prepared to dedicate people to 
that and have people from those entities also working at 
Commerce so that we make a seamless integration.
    Hard to predict exactly what the timeline would be, but it 
is probably something more or less on the order of a year to 
make a seamless transition between the two.
    Mr. Rogers. Do you anticipate cooperation with countries 
like China and the companies therein and companies in India 
that are going to also be concerned about this activity?
    Secretary Ross. Well, yes. We, as you know, have a very 
international map to both our activities and our physical 
presence. And parts of our activity, such as the ITA 
[International Trade Administration], the promotion entity that 
has created some $3 billion of space business already, NIST 
[National Institute of Standards and Technology] works with 
just about every country in the world in evolving standards. 
And standards and getting them agreed with other countries is 
clearly a very important part of this activity.
    Mr. Rogers. Mr. Bridenstine, how would debris mitigation 
work functionally? I just don't know. I don't have a clue.
    Mr. Bridenstine. So a couple of things. You mentioned 
earlier, Chairman Rogers, that there were going to be these 
constellations of potentially thousands of satellites in low 
Earth orbit for the purpose of communications. That is 
absolutely true.
    Where NASA is right now, we participate in what is called 
the Interagency Space Debris Coordination Committee. When this 
committee hears the word ``interagency,'' you think of within 
the U.S. Government. When we talk about the Interagency Space 
Debris Coordination Committee, we are talking about space 
agencies from around the world.
    And this interagency committee includes 13 different space 
agencies across the world. And what this organization has 
determined is that every 5 to 9 years, if launch cadences stay 
the same and the orbital debris fields stay the same, every 5 
to 9 years we are going to have a collision in low Earth orbit 
similar to the Iridium-Cosmos collision that we saw back in 
2009 that created thousands of pieces of orbital debris. Now, 
that is if launch cadences stay the same and constellations 
don't grow. In fact, we are seeing just the opposite. Launch is 
going to be happening a whole lot more frequently, especially 
if I am successful doing my job as the NASA administrator. We 
are going to see a lot more launches. We are going to see a lot 
more activity in low Earth orbit. So these kind of collisions 
beget even more collisions.
    So we have to be very careful that we don't let this 
eventually run away. And I am not saying that we are even close 
to that right now, but we need to be thinking the next 50 
years, 100 years down the road, especially as we take more 
advantage of space.
    As far as how NASA deals with a lot of the--you mentioned 
the word ``mitigation'' challenges. NASA sets standards to 
prevent new orbital debris from occurring. So when a spacecraft 
gets launched and then it separates from its upper stage, 
sometimes that can result in debris. And so we set standards 
for ourselves as an agency to limit that kind of activity so 
that we prevent or we limit as much as possible the danger from 
space debris.
    Those standards then ultimately get promulgated throughout 
the rest of the interagency within the U.S. Government. So the 
Department of Defense follows those standards. NOAA follows 
those standards, other agencies that utilize space. And 
eventually, it got to the point where now those standards are, 
you know, required for commercial operations as well and, of 
course, promulgated throughout the international community.
    So NASA has led on this. I will be clear that not all the 
countries follow the same standards, so that is often a 
challenge, but I do believe it is important for us to lead and 
that those standards could eventually get to a point where 
there is enough international pressure that around the world 
countries will have to follow those standards.
    Mr. Rogers. Great. Thank you very much.
    The Chair now recognizes the ranking member, Mr. Cooper, 
for any questions he may have.
    Mr. Cooper. Thank you, Mr. Chairman.
    I too would like to welcome the witnesses. I appreciate Mr. 
Bridenstine's chart here. I think that is very helpful in 
helping us understand the debris problem. I am worried, though, 
that the chart underestimates the difficulty. As you point out 
in your testimony and Secretary Ross does as well, we have some 
600,000 pieces of very tiny debris to monitor, because each one 
of those pieces could be deadly.
    General Hyten. That is right.
    Mr. Cooper. And as all the witnesses said, this problem is 
only increasing and it is probably increasing exponentially. So 
right now as we are offloading the priceless work the Air Force 
has been doing for space traffic management, right now we are 
reaching the acute phase, the urgent phase for the entire 
planet when, as Secretary Ross pointed out, a large percentage 
of today's space debris is the result of just two collisions, 
just two, and how there are going to be thousands and perhaps 
tens of thousands of collision possibilities. And as the 
Secretary also pointed out in his testimony, each one of these 
could lead to a devastating chain reaction of creating yet 
further debris, which could tax the power of even the fastest 
supercomputer to monitor all these orbits and trajectories and 
speeds and things like that.
    So a simple question: Should we punish nations or companies 
that cause satellite debris? It is one thing to use carrots. 
Are we also going to consider sticks? To each of the witnesses.
    Mr. Bridenstine. Ranking Member Cooper, within the Outer 
Space Treaty, nations are responsible for what they do in 
space. There is a liability that nations have for these kind of 
activities. Unfortunately, if you look throughout history, some 
very nefarious activities have happened in space.
    On your subcommittee, we talk about the 2007 direct ascent 
antisatellite missile launched by China that hit one of their 
own weather satellites and created an orbital debris field of 
thousands of pieces that we are, in fact, still dealing with 
today in low Earth orbit. The challenge that we have is 
enforcement at the international level. It is a big challenge.
    So certainly we have seen activities change, based on 
international pressure, but we haven't seen really any 
enforcement as far as liability, anybody paying the price for 
the damage that they have done to low Earth orbit.
    Mr. Cooper. Let's make it a U.S.-only issue. Should we 
punish a U.S. company that causes needless space debris?
    Mr. Bridenstine. That is a good question, sir. I would like 
to take that for the record, maybe get back to you on what a 
good approach on that might be.
    But certainly--and I think you are aware of this keenly--we 
want to maximize the utility of space. We want commercial 
companies to have access and availability. And if they are not, 
in fact, following the rules, we could deny access to space for 
everybody altogether, which would undermine our ability to 
maximize the utility of space. So there should be some kind of 
legal regime, yes, sir.
    Mr. Cooper. My time is limited with all the other members 
here, but there is the attribution problem. NASA currently has 
a statistical model to track these 600,000 pieces. How do you 
tell a satellite company or, worse, an astronaut that they died 
or were killed because of a statistic? People will want 
attribution.
    If you have enough data to form the model, then there must 
be some reasonable source for that data. So we have got to 
figure this out, because the 600,000 pieces you are tracking 
today could be tens of millions or billions shortly.
    Mr. Bridenstine. Yes, sir. Attribution is critical, and 
some of the new technologies that are being developed right now 
could help us to attribute, you know, a piece of orbital debris 
that caused somebody's loss of life to a specific nation or 
company. That is a challenge going forward for sure.
    Mr. Cooper. Thank you, Mr. Chairman.
    Mr. Rogers. Thank you. The Chair now recognizes Chairman 
Babin for any questions he may have.
    Mr. Babin. Thank you, Mr. Chairman.
    Thank you, witnesses, for being here too.
    Secretary Ross, I would like to start with you, if you 
don't mind. I would like to start by stating my support for the 
President's Space Policy Directive-3. And while I am at it, I 
support 1 and 2 as well. In Congress, we have a responsibility 
to protect the taxpayer. Government spending and bureaucracy is 
a serious concern. However, not improving the Nation's civil 
space situational awareness and space traffic management 
framework is unacceptable.
    What steps will be taken to protect against unnecessary 
spending and how much funding will be needed to carry this 
policy out?
    Secretary Ross. Thank you for that question, sir. This 
activity will report to the regulatory reform officer at 
Commerce. And as you may be aware, we have already dismantled 
65 regulations, which is more than any other Cabinet 
department.
    So we are keenly aware of the importance of reducing 
bureaucratic burden, both in terms of direct taxpayer expense 
and in terms of the burden unnecessarily placed on industry. So 
that will be one of the activities we have very, very much in 
mind.
    Mr. Babin. Okay. Thank you. Then the next question for 
Administrator Bridenstine, NASA has substantial technical 
expertise relevant to improving space situational awareness and 
space traffic management. For example, Johnson Space Center is 
home to the world-renowned orbital debris scientists. Under SD-
3, how will NASA leverage its expertise to further our national 
SSA and STM efforts?
    Mr. Bridenstine. It is a wonderful question, Chairman. So 
under Space Policy Directive-3 and the implementation guidance, 
NASA is directed to lead a research and technology effort that 
takes advantages of the capabilities that we already have, but 
also make investments to improve on those capabilities and 
technologies.
    I think our biggest area of focus historically has been 
investing in characterizing the orbital debris population that 
cannot be tracked because it is too small, and then assessing 
risk based on that orbital debris population. And, of course, 
Space Policy Directive-3 is going to take it a step further and 
give us authorities to ultimately make investments to do space 
situational awareness or, you know, potentially, you know, 
creating an environment--kind of the way I see NASA being 
involved.
    I will just start over here a little bit. Kind of like the 
way NASA does unmanned aerial systems traffic management, we 
don't want to be involved in doing unmanned aerial systems 
traffic management for the United States of America and 
integrating UAVs [unmanned aerial vehicles] in into the 
airspace. That is not the job of NASA. But what we can do is we 
can do the technology demonstrations, we can do pilot programs, 
we can do the research, and then ultimately take all of what we 
learn and hand it over to the FAA [Federal Aviation 
Administration], which is the way NASA is dealing with UTM, 
unmanned aerial systems traffic management, right now.
    I think going forward, under Space Policy Directive-3, we 
are going to be charged with the same thing, maybe doing pilot 
programs, demonstrating technology, and then ultimately handing 
it over to Commerce, which will have the lead on space 
situational awareness and space traffic management in the 
future.
    It is also true that NASA will not be creating data. That 
is ultimately not what we do. Of course, the Air Force or I 
should say Strategic Command creates data through the JSpOC, 
and then that data could be provided to Commerce. It could also 
be provided to commercial partners. And then the data that 
Commerce has would be augmented probably also with commercial 
partners.
    And what NASA can do is ultimately test a lot of the 
technologies, test the data, and then ultimately implement a 
plan to help Commerce lead the effort.
    Mr. Babin. Great. Okay, thank you.
    And then, General Hyten, the DOD and in particular the Air 
Force has proposed a significant increase in their space 
capabilities with the fiscal year 2019 budget. Would you talk a 
little bit about these capabilities that this increased 
investment will provide and how they will enhance your 
warfighting mission?
    General Hyten. Mr. Chairman, I am a combatant commander, so 
the specific answer can come from the Air Force. But as a 
combatant commander, I do advocate for those capabilities.
    And I am very aware of what the Air Force has put in the 
budget, and I am pleased with the improvements the Air Force 
has made in the budget, because those improvements come in a 
number of different ways. For the purpose of this hearing, a 
lot of those improvements are in space situational awareness.
    The Air Force now has a joint program with the National 
Reconnaissance Office called Silent Barker where, instead of 
having two programs on two different sides of the national 
security space business, there will be one. That one program 
will improve our situational awareness of the geosynchronous 
orbit in a significant way.
    We are also producing the Space Fence. The Space Fence will 
come online in 2019. That capability will allow us to see 
hundreds of thousands of objects that we don't see today. That 
data will be critical to our mission in the Department of 
Defense, but we can also provide that to the Department of 
Commerce and NASA to allow this broader piece to happen.
    And then, broadly speaking, what you see in the budget is 
an improvement of our ability to defend ourselves against 
threats in space. What you see is a change of our architecture 
from a large status quo structured approach to a more resilient 
survivable capability that can defend ourselves in the future. 
And then you see in the classified world a lot of work being 
put to make sure we have the ability to defend ourselves if we 
are attacked.
    Mr. Babin. And then right along those same lines, how will 
the establishment of a civil SSA program at the Department of 
Commerce benefit DOD and continue to protect national 
interests?
    General Hyten. So we talked about the Iridium-Cosmos 
collision in 2009. I was the investigating officer of that 
collision. And one of the things we realized--and General 
Chilton was the commander of Strategic Command at the time. And 
when I briefed him, we kind of came to the realization that we 
are going to have to do this flight safety mission ourselves. 
And we had to take about a hundred airmen, a hundred military 
people off of other missions and put them on that in order to 
do that mission.
    Now, we have become a little more efficient as we have gone 
through the years, because we have been able to improve our 
automation and capabilities, but we still have dozens and 
dozens of airmen that do that all the time. When we move that 
now into the Department of Commerce, we still have to do the 
job for ourselves, but we will be able to free up those airmen 
to focus on the warfighting missions that we need to worry 
about. That is what we get out of this new approach.
    Mr. Babin. Yes, sir.
    And then finally, Secretary Ross, Space Directive Number 3 
states that basic space situational awareness and space traffic 
management services should be provided free of direct user 
fees. And just to clear up some concern and questions, what 
services are considered basic and what are some examples of 
services that go beyond basic?
    Secretary Ross. Well, thank you. We can use the same 
definition of basic services as has been used historically. We 
don't see any reason to change that. But a major function will 
be an open architecture approach to it. Commerce is directed to 
build that under SPD-3 [Space Policy Directive-3] to 
incorporate DOD and NASA information with information from 
international partners and commercial operated data. So it will 
be a two-directional set of communications, and that will 
create an enhanced space situational awareness picture.
    Mr. Babin. And then how about the basic--what is 
considered--what would be considered beyond basic?
    Secretary Ross. Well, the idea of open architecture. Right 
now, there is not an open architecture. It is a one-way 
communication channel. We think there is merit to having inputs 
with information from international partners, as we do right 
now with the National Weather Service. We coordinate with lots 
and lots of other government entities in other parts of the 
world, and that is a very important part of our activity.
    Mr. Babin. Okay. Thank you.
    And I yield back, Mr. Chairman.
    Mr. Rogers. Thank you, Mr. Chairman.
    The Chair now recognizes Ranking Member Mr. Bera for any 
questions he may have.
    Mr. Bera. Thank you, Mr. Chairman.
    And obviously, this is an incredibly timely hearing. Before 
I ask my questions, I also just want to be clear that we have 
not made a decision, this body, Congress, as to where space 
situational awareness should be housed. So that is not an 
administrative decision; that is a congressional decision.
    And Secretary Ross, with all due respect, I don't want the 
Department of Commerce to start making those plans, because, as 
has already been raised in each of the testimonies, this is 
incredibly important as we go forward.
    Now, I think it is important, you know, under the 
leadership of both chairmen, of HASC [House Armed Services 
Committee] as well as Science, Space, and Technology, I know 
Chairman Smith, Chairman Babin, the Ranking Member Johnson, we 
have been talking about this quite a bit and we have got to get 
this right. It is better to get it right, because this is the 
21st century. We have to make sure that DOD has everything that 
it needs to continue to do the important work of protecting our 
vital assets in space.
    And, you know, as Administrator Bridenstine has already 
pointed out, we don't want to stifle the innovation in the 
commercial sector. We don't want to stifle the interest in the 
international community. But we want to do this right and we do 
need that, for lack of a better way of describing it, air 
traffic control cop that is going to, you know, put everyone in 
the right lane and, you know, to the best of our abilities 
prevent accidents from happening in space.
    You know, it really does have the possibility of 
transforming what the 21st century looks like. So, you know, 
again, this Congress, as a deliberative body, has oversight 
over, you know, what situational awareness looks like in the 
21st century. I appreciate the interest of the President and 
the Vice President, the Space Council, and your interest, 
Secretary Ross, but we have got to do our work and we are not 
abdicating that responsibility.
    So, Secretary Ross, if we are looking at housing 
situational awareness within Department of Commerce, there is a 
lot that has to go into this transition. What kind of resources 
are necessary? What kind of oversight? How do you share 
information that only the Department of Defense is probably 
going to be able to see? How do you make that publicly 
available? How do you make that internationally available?
    I would ask, are you prepared through your department to 
present an implementation and transition plan to Congress and 
to this body?
    Secretary Ross. We certainly would if and when we are 
authorized to undertake the function. But we already, as I 
mentioned, we disseminate to the public about 40 percent of all 
the factual information emitted by the administration. So we 
are very used to packaging information, getting it to the right 
place, getting it in the right format for people to use.
    And one example is space weather is, as you know, a very 
major factor in this whole situation, because of the impact it 
has on things that are orbiting around. Well, we are already 
keenly involved with space weather through our space satellites 
that are part of the National Weather Service. So we are 
already into that aspect of it and in a very good position, for 
example, to integrate that with these other activities.
    Mr. Bera. Well great. As my colleague from Colorado, who is 
helping us push a space weather bill through Congress, it might 
sound really geeky or wonky, but incredibly important since all 
of the technology that we rely on, GPS [Global Positioning 
System] technology, et cetera, not just our military but 
everyday consumers and individuals.
    General Hyten, we have put a lot of responsibility on the 
DOD and the Air Force, and the DOD has done a wonderful job 
kind of monitoring; and, you know, it is time that we relieve 
you of some of that burden for the international world and the 
commercial sector.
    From my perspective, as we go through this transition, 
there still are going to be unique capabilities that only the 
DOD has and only the DOD should have. We will have to think 
through how that information gets passed on to NASA or to 
Commerce or Department of Transportation. And as you are 
thinking through this, do you have any thoughts of what we 
should be thinking about as a deliberative body?
    General Hyten. So a couple of thoughts. So I think from the 
largest perspective, we have to make sure that as we go forward 
in the future we always have the ability to make sure we 
understand what our adversaries are doing. That means we have 
to have exquisite situational awareness of exactly what is 
happening on a real-time basis. That is why you have authorized 
significant amounts of taxpayer dollars to be put against this 
problem.
    As we go into this different sharing arrangement, though, I 
think the first rule that comes to mind is the first rule of 
wing walking, and that is you don't let go of the strut until 
you have good hold of the next strut, which means we can't let 
loose of, you know, what we have now and what we are doing 
until we know what is on the other side.
    SPD-3 says for the future, the Department of Defense is 
responsible for providing the authoritative catalog for our 
country. That means the catalog will come out of the Department 
of Defense. Now we have to push that into Department of 
Commerce, into NASA, into other places.
    We are going to look with open eyes at how we do that, what 
the way is that we do that, are there better ways to do that. I 
think you will see things as we go through the coming year of 
different ways to do it. But, again, don't let go of the one 
strut until you got hold of the next one.
    Mr. Bera. And I share that sentiment. Let's hold onto that 
strut. Let's think in a deliberative fashion what this looks 
like. Think through all the different scenarios and then come 
up with the right decision. Better to be deliberative about 
this and get it right as opposed to be hasty about this.
    Administrator Bridenstine--and, Jim, it is good to see you 
on that side of the podium--I know we share a mutual interest 
in, you know, allowing the commercial sector and recognizing 
the importance of space, but I think we also share a value, and 
I think all of us in this room share this value that the world 
is best served with American leadership, and, you know, that 
translates to space as well.
    And, you know, I do think, you know, in how we look at the 
world, NASA is going to be critically important as we address 
this framework. Because it is not just a domestic issue; this 
is an international issue. And let's get this framework right 
and then take it to the international community so it does set 
that framework.
    Do you have any thoughts of what we should be thinking 
about?
    Mr. Bridenstine. Absolutely, Ranking Member Bera. And it is 
good to be here. Thank you for that. And this goes really to 
the heart of what Chairman Babin was talking about was what is 
basic space situational awareness data? What is that? Because 
it is very clear in SPD-3 and the implementation guidance that 
that needs to be without fee, and the question is why. And as 
you mentioned, American leadership here matters.
    So we need to have, in my view, some basic SSA data 
available for free, because then when people all around the 
world are making investments, making determinations where they 
are going to invest their money to do space activities, they 
are going to make that determination in the United States of 
America, because we will have a regime that provides safety and 
security for their investments and at the same time is without 
fee. So that attracts capital to the United States. It keeps us 
in a preeminent position.
    Now, there will be debate about the fact that some people 
would like to see commercial companies--and this would be a 
good thing and I support it. Some people would like to see 
commercial companies providing the space situational awareness 
and space traffic management. We could have a regime where 
maybe Commerce were to license commercial companies to do that 
activity, and then before you launch you have to prove to 
Commerce that you have purchased or bought a subscription to 
one of those commercial companies providing SSA and STM.
    So that is a model where you would have a competitive 
market to provide more data and better data, with multiple 
[SSA]/STM providers all licensed by Commerce, but at the same 
time we get back to what is that basic [SSA]/STM that would be 
provided without fee. And this is going to be a balance, 
because ultimately we want people to make investments in the 
United States of America, and at the same time we want a 
commercial competitive marketplace where these providers of STA 
and--SSA and STM, they are competing to provide more data and 
better data at a lower cost, driving down insurance rates, all 
those kind of things.
    So this is not going to be an easy thing, as you have 
already identified, but here is what I think all of us believe. 
It has to be done, because what is at stake is so important 
right now.
    Mr. Bera. Great. And with that, I yield back.
    Mr. Rogers. Thank you, Mr. Bera.
    The Chair now recognizes Chairman Lamar Smith for any 
questions he may have.
    Mr. Smith. Thank you, Mr. Chairman.
    First of all, let me say that it is gratifying to see the 
cooperation and collaboration between the two committees that 
has resulted in this hearing today. This may be a first. It is 
certainly the first in many years, and I hope it will be an 
example of further cooperation between our committees.
    Second of all, it is nice to see a former member of the 
Science, Space, and Technology Committee as the new 
administrator of NASA. Jim Bridenstine is the right person at 
the right time in the right place, and that doesn't happen that 
often, but it is nice that it happened here.
    Mr. Bridenstine. Thank you, sir.
    Mr. Smith. Jim, good to be with you.
    Secretary Ross, let me direct my first question to you, and 
I think this will help a number of members here. Would you go 
into some detail as to why you think the Department of Commerce 
is the best agency to oversee the space traffic management?
    Secretary Ross. Yes, sir. First of all, as you know, we 
have elevated all of the space activities within Commerce into 
the Office of Space Commerce, which reports directly to me. So 
rather than being fragmented, rather than being buried in 
different parts of the Department, we are pulling it all 
together. That in and of itself will make it more functional, 
less bureaucratic than it had been.
    In terms of specific things that we can do, the ITA has the 
statutory duty, as does the Office of Space Commerce, to 
promote and assist this burgeoning space industry. The National 
Institute for Standards and Technology, which has a very proven 
record in developing standards and having them adopted 
throughout global economies, will be very, very involved. NTIA 
[National Telecommunications and Information Administration], 
which manages Federal spectrum use for space communications, 
will also play a very important role in it. And then NOAA, as 
you know, it already oversees the largest operational space 
force in the private civil sector.
    So those are some of the experiences that we already have. 
Notwithstanding, we continue to engage with our partners at the 
Department of Transportation on a variety of issues, and we 
will be working quite intensely with NASA on the one hand and 
with DOD on the other hand.
    So we already are planning within the next couple of weeks 
to send, as I mentioned, a delegation to Omaha and to 
Vandenberg. So we are trying very hard to figure out the proper 
way to integrate ourselves.
    Mr. Smith. Okay.
    Secretary Ross. The other thing that you should be aware, 
many companies that don't need a license actually put a camera 
on their payload anyway to get the license for remote sensing 
from Commerce. And the reason they do that is it deals with 
their compliance with the Outer Space Treaty.
    So here you have companies volunteering to come under the 
regulatory regime of the Department of Commerce. And I think 
that speaks volumes about the degree to which the industry 
feels we and they can work in very good unison together.
    Mr. Smith. Okay. Thank you, Mr. Secretary.
    Administrator Bridenstine, NASA has had a long and strong 
relationship with the Department of Defense that you have 
mentioned, and should the Department of Commerce take over the 
space traffic management, is your relationship with DOD going 
to change one way or the other? And also, what would be NASA's 
role in dealing with the Department of Commerce on some of the 
issues that you have been dealing with the Department of 
Defense?
    Mr. Bridenstine. That is a wonderful question. So even 
right now, NASA has folks at the JSpOC that are looking out for 
the interest of NASA, with all the great data and tools that 
are available inside the JSpOC. So that is happening right now.
    And if there is a NASA asset that could be at risk because 
of an object that is being tracked at the JSpOC, those orbital 
safety analysts ultimately take that data and they get in touch 
with one of two people. They go straight to Johnson, where they 
report it to the trajectory operations officer, we call it the 
TOPO, you know, at Johnson Space Center.
    And then they do further analysis to determine if that 
object could ultimately put the International Space Station at 
risk. That is what they are specifically looking for. And then 
if it does, what do we do about it? So that is on one hand. And 
on the other hand, some of the data goes to CARA [Conjunction 
Assessment Risk Analysis], which is over at Goddard, for the 
robotic capabilities.
    But I guess my point is to your question, the answer is 
yes, we have a great working relationship with the Department 
of Defense. We have our NASA personnel working side by side 
with their folks at the JSpOC feeding data to our centers to 
make sure that our assets are protected. And I anticipate that 
will continue.
    As General Hyten has said, if we win we move to a day where 
Commerce is at the helm of space situational awareness and 
traffic management, it is absolutely true that the Department 
of Defense will continue to keep the catalog, because they need 
to for their own purposes.
    So it is possible that NASA would continue to have our 
personnel maybe at the JSpOC. No decision has been made. Maybe 
we could take the data from the DOD and combine it with 
commercial data over at Commerce and international data over at 
Commerce and ultimately get a better integrated space picture 
at a different agency, not that that would necessarily happen, 
but it could. And if it did happen, then we would want our 
folks over at Commerce and we would probably keep them at DOD 
as well. But, again, this is way early and undetermined at this 
point.
    Mr. Smith. Okay. Thank you, Administrator Bridenstine.
    And, General Hyten, let me ask my last question to you. And 
it has just been mentioned both by the administrator and by 
Congressman Bera a few minutes ago in regard to the catalog of 
space objects that users take advantage of to avoid collisions 
in space. If the Department of Commerce takes over that 
responsibility and others that are now assumed by the 
Department of Defense, do you see any diminution in the quality 
of product, any diminution in the quality of service if the 
Department of Commerce takes over some of those 
responsibilities?
    General Hyten. So, Mr. Chairman, I think that the line in 
the Space Policy Directive-3 that says the Department of 
Defense has to maintain the authority of the catalog, the 
reason that is there is because you can't have arguing 
catalogs. You can't have one in the Department of Commerce and 
one in the Department of Defense and then you end up arguing.
    We actually used to have that inside the Department of 
Defense, because we had one that was done by the Navy, one that 
was done by the Air Force. And it is not healthy to be arguing 
over which one is better. You have to take the best data, build 
that catalog. And that is why I said the authoritative catalog 
will always be in the Department of Defense. Then we will feed 
that data into the Department of Commerce.
    And they can take other pieces to do the interface with 
other nations, with the commercial sector, possibly with NASA. 
I would envision what Congressman Bride--I did it--
Administrator Bridenstine said. I would see it at the JSpOC at 
Vandenberg, soon to be the Coalition Space Operations Center. 
We will have international partners, NASA, Commerce there, and 
then we will feed information out of there into Commerce, into 
NASA. I think that is the healthy way. But, like Secretary Ross 
said, we are still in the early days of figuring this out.
    Mr. Smith. Still, that clarification that you just 
mentioned I think is very reassuring to us, and it portends a 
wonderful relationship between DOD and the Department of 
Commerce.
    Thank you, Mr. Chairman. I yield back.
    Mr. Rogers. Thank you, Mr. Chairman.
    The Chair now recognizes Ranking Member Johnson for any 
questions she may have.
    Ms. Johnson. Thank you very much, Mr. Chairman, and good 
morning. Let me welcome our witnesses and thank you for your 
service.
    General, the Obama administration had considered agency 
roles and responsibilities for the civil SSA data and 
information services and had reached an interagency agreement 
that FAA assume that role. I understand that FAA, in 
coordination with DOD, was planning to do a pilot program at 
FAA on civil SSA data and information services.
    What would that pilot program have entailed, and what are 
your thoughts on a pilot program as part of the transition of 
SSA data sharing to the civil agency?
    General Hyten. So thank you for the question, because it is 
important that we kind of go back in history a little bit to 
look at that. Because I have been working in this world for 
over two decades. In 1998 I transitioned a mission, a weather 
mission out of the Air Force into the Department of Commerce.
    For the last 10 years, really since the Iridium-Cosmos 
collision in 2009, I have been working very hard in the 
interagency to try to figure out where to put that mission, 
because it is not inherently a DOD mission.
    And so in the last administration, we were working with 
Commerce and Transportation. The FAA was going to do a pilot 
program. That pilot program was going to basically look at what 
it would take for us to ship the catalog into that organization 
and for them what kind of analysis tools, what kind of pieces 
would they have in order to do that information.
    As we have transitioned, this administration and the new 
SPD-3 that just came out says Commerce is going to take the 
lead on that, based on the burgeoning commercial sector. From 
the STRATCOM [Strategic Command] perspective, from the DOD 
perspective, bluntly, it doesn't matter to me. We need a civil 
agency that is doing that role. Commerce makes sense. 
Transportation makes sense. That is a political decision. I 
think that Secretary Ross has made a good argument today of why 
Commerce is properly the situation to do that.
    I will work with whatever element that our Nation decides 
is the right place to do it, and SPD-3 makes it clear that 
Commerce right now is the lead. So in the next few weeks, we 
will be working closely with Commerce. If that changes, I will 
work with whoever it takes.
    Ms. Johnson. Thank you very much.
    Any other comments from other panel members?
    Mr. Bridenstine. Can you repeat the question one more time?
    Ms. Johnson. The question that I had posed is about the 
program, pilot program that had started with the FAA being the 
lead and if any information is transferable or----
    Mr. Bridenstine. So I think some of the arguments are that 
especially commercial industry would like a one-stop shop. And 
one of the challenges we have right now is that, from my 
perspective, it looks very difficult to find a one-stop shop, 
because you have got the FCC [Federal Communications 
Commission] that is responsible for spectrum. You have got NOAA 
that is responsible for remote sensing and imaging and that 
kind of regulation. You have got the FAA that is responsible 
for launch and reentry. And, of course, NASA is responsible for 
giving advice on, you know, protecting the space environment 
when it comes to orbital debris and even, you know, preventing 
harmful contamination of planets and things like that.
    So there are a whole host of different agencies involved in 
space at different levels. So the question then becomes how you 
do create a one-stop shop, and it looks increasingly more and 
more difficult all the time.
    So how do we minimize--this is the key I think, Ranking 
Member Johnson, that we all have to recognize. How do we create 
the maximum regulatory certainty with the minimal regulatory 
burden? And if we can consolidate these activities in one 
Federal agency or another, that minimizes the regulatory burden 
for the commercial operators especially.
    So Secretary of Commerce has I think very clearly 
articulated that they believe they have the capability. The 
President's Space Policy Directive-3 says that they want 
Commerce to lead that activity. And I think that is a great 
idea. In fact, I voted on the American Space Commerce Free 
Enterprise Act and supported it in the subcommittee and the 
full committee when I was on the other side of the--other side 
of the aisle here. So I think the key is it needs to be done. I 
think Commerce is a good place to do it.
    Ms. Johnson. Thank you.
    Did you have any comment, Mr. Ross?
    Secretary Ross. Yes. Well, couple of things. Commerce 
already has many space industry-facing resources. By statute, 
we are obliged to foster growth in the space commerce industry 
through the Office of Space Commerce.
    Second, we license satellite remote sensing activities 
through the Commercial Remote Sensing Regulatory Affairs 
Office.
    Third, we manage Federal spectrum through the National 
Telecommunications and Information Administration.
    Fourth, we manage space weather data collection and 
distribution through NOAA.
    Fifth, we enforce the export administration regulations as 
they apply to space objects through the Bureau of Industry and 
Security.
    Sixth, we promote U.S.-based industry abroad through the 
International Trade Administration.
    And finally, once the payload is separated from the rocket, 
it is usually a different owner. The launch system is very 
different and it is usually a different entity from the one who 
has the payload. So there is no continuity between launch and 
what goes on once the payload is in outer space. That payload 
often is not, comes under our orbit in any event.
    I hope that explains why we think we are quite logical.
    Ms. Johnson. Yes, sir. What agencies now within Federal 
Government that currently carries out the research on SSA and 
the orbital debris, and to what extent are those activities 
coordinated?
    Mr. Bridenstine. Ranking Member Johnson, NASA, of course, 
does a lot of the research and technology. We really kind of 
set the standards that ultimately get followed by the other 
agencies. So NASA is very involved in it. We partner with 
universities and the commercial industry to come up with the 
best practices and the technology and research. And so, when it 
comes to the S&T [science and technology] piece of it, NASA 
really takes the lead.
    General Hyten. And Representative Johnson, we have a lot of 
capability in the Department of Defense to look at that, but I 
would agree with Administrator Bridenstine, that NASA is the 
lead when it comes to the S&T into that. We take most of the 
algorithms and incorporate into what we do. We have to be able 
to characterize that, which is why we still do research in that 
area, but NASA is clearly the lead.
    Ms. Johnson. Thank you very much. Just one final question. 
How could this work be leveraged in a civil operational SSA 
system?
    Mr. Bridenstine. So ultimately, the idea behind SSA and 
STM, if we want to be as safe as possible, we need more data, 
and we need better data, more accurate data, and we need the 
ability to process that data. And so when it comes to science 
and technology, which is what NASA does, those are investments 
that we make. We want to be able to get more data, better data, 
and be able to process it in a way that ultimately gives us a 
much more safe environment, and then take that and hand it to 
the agencies that actually do SSA and STM.
    Ms. Johnson. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Rogers. I thank the gentlelady.
    The Chair now recognizes the gentleman from Colorado, Mr. 
Lamborn, for 5 minutes.
    Mr. Lamborn. Thank you, Mr. Chairman, and thank you all the 
chairmen for putting together this great hearing. And thank you 
for the panelists for what you are doing for our country. And I 
have got one question for each one of you.
    General Hyten, a lot of the data standards work for space 
situational awareness is done in Colorado Springs at Air Force 
Space Command. So how will this policy affect that tremendously 
important work?
    General Hyten. So the work that we need in order to 
characterize threats will continue. It will continue through 
STRATCOM, through my Joint Force Space Component commander, who 
is also the Air Force Space Command commander in Colorado. He 
has the people that do that work. That work will continue. It 
has to continue. But I think what will change as we look into 
the future, and this is just a natural progression as we look 
in the domain, is that we will have to partner closer with, not 
only NASA, and the Department of Commerce, Department of 
Transportation, but the commercial sector as well, because 
there is a number of significant commercial entities that 
actually do this mission. And they have capabilities that we 
need to be able to leverage as well.
    So it can't be that one size fits all. We have to take the 
best debris from wherever it comes and integrate that to 
provide the best capabilities we can.
    The interesting thing that, you know, following on to what 
Administrator Bridenstine just said about the data, most of the 
data comes from the Air Force. Most of the data comes from the 
Department of Defense. We will ship that into multiple places, 
though, and people can use that data to produce better 
products. And I think that if we do it right, we will get 
benefit out of that and the Department of Defense because the 
folks that do that business will learn from others doing it as 
well and we will apply the best practices in the business that 
we have to do in the military.
    Mr. Lamborn. Okay. Thank you. And oh, I see that the clock 
is working now. So I guess I better hurry.
    Administrator Bridenstine, and we have touched on this 
already with other questions previously, but do you believe 
that utilization of best of breed commercial SSA processing 
software for enhanced foundational SSA for NASA to avoid a 
potential catastrophic debris collision with the International 
Space Station is the best way to go? Or where should that 
software come from?
    Mr. Bridenstine. That is a great question. The answer is to 
the extent--and, of course, this is in the future, we are not 
there yet--but to the extent we have a regime to do space 
situational awareness and space traffic management that is 
outside the Department of Defense, and instead in a civil 
entity, there are different ways it could be organized.
    And, of course, one of the ways it could be organized is 
that it could be done by commercial providers of space 
situational awareness that, in fact, some of which exist right 
now today. The Space Data Association, for example, the ComSpOC 
[Commercial Space Operations Center], and there are other 
companies providing data that feed the ComSpOC and the Space 
Data Association. So these are all technologies and 
capabilities that can be done commercially, can be done 
privately.
    The question is, going back to what General Hyten was 
talking about earlier, is who controls, who manages the data 
set, the catalog that is definitive. And ultimately, can it be 
enhanced with commercial, and those kind of things?
    One model, as I said earlier, is you could have multiple 
commercial companies and/or non-profits or universities 
competing to provide SSA and STM to space operators. And the 
reason you want competition is because it drives down price, it 
increases innovation. Again, you get better data and more data. 
That is a model that works. And then ultimately, the people 
that pay for the data, that pay for the subscription would be 
the operators.
    It is also true that we have to balance this with the idea 
that we don't want to drive people to other countries for their 
space situational awareness and space traffic management by 
having people in the United States pay for a subscription or 
pay for fees. So this is a balancing act.
    We want the United States of America to be preeminent when 
it comes to SSA/STM; and at the same time, we want to have 
commercial capabilities that give us more data, better data, 
and a competitive environment to drive down cost and increase 
innovation.
    So it is very early in the process. It is something that we 
really need to think through, and I am happy to be a part of 
it.
    Mr. Lamborn. Okay, thank you.
    And I was going to ask you, Secretary Ross, the same 
question. In just a few remaining seconds, do you want to 
address that? And then I will yield back the balance of my 
time.
    Secretary Ross. Well, I agree very much with what the 
administrator has just said. There are alternate models that 
could be used, but at the end of the day, somebody in 
government needs either to do it, or to license the private 
sector to do it. So either model in concept could work, but you 
still need a government interface. I don't think it is an 
activity that should just be left unbridled to the private 
sector. And I think everybody up here will agree with that.
    Mr. Bridenstine. I agree with that, Mr. Secretary.
    Mr. Lamborn. Okay. Thank you. I yield back.
    Mr. Rogers. I thank the gentleman.
    The Chair now recognizes the gentleman from New Jersey, Mr. 
Norcross, for 5 minutes.
    Mr. Norcross. Thank you, Chairmans, for coming together to 
have this discussion.
    And it is good to see a member of HASC as the administrator 
of NASA, certainly. The questions that I want to follow up on 
are ones that we have all been working around.
    When we talk about the assets, the assets of collection, 
whether ground-based or space-based, who ultimately will be the 
decider of those assets? Who is going to purchase them? Who is 
going to look into them? And when that decision is made, I 
would assume most of these things are going to have to go 
through the Department of Defense first to say what is 
sensitive nature and who decides, who makes that decision, 
whether or not this information gets released to the commercial 
side.
    So, A, the assets, who is going to make the ultimate 
investments, and I have heard you talk about the commercial 
side, but ultimately--we don't want duplication, but it all 
goes through the filter of the Department of Defense. So 
ultimately, who makes that decision on what information gets 
derived to the commercial side and who pays for the assets? If 
we could start with General Hyten.
    General Hyten. I will start, Congressman.
    So I believe that if you look at it as a building block of 
capabilities, I think the baseline capabilities is in the 
Department of Defense, and the Department of Defense will have 
to pay for that baseline. That baseline is what we need in 
order to understand what our adversaries are doing in space----
    Mr. Norcross. That is the highest and number one priority.
    General Hyten. That is the number one priority. So the bill 
for that comes to the Department of Defense. We have to pay for 
the sensors. We have to pay for the ground sensors, the space 
sensors, and the processing that allows us to do that. Now, 
that is the baseline. But it doesn't talk about the interface 
with the commercial sector. It doesn't talk about the interface 
with others. We have been making that up. I mean, literally 
making it up for 9 years now. We need to have a structured 
process. And that is where the commercial sector can come in. 
That is where the Department of Commerce can come in. And they 
can look at a different way of doing business.
    They can bring in other sources of information, other 
display tools, other capabilities that can do that. They may 
decide that there are other sources from the international 
community that they can bring in. I would hope that we have a 
partnership where if they bring other sources, they will feed 
that into our algorithm so we can take advantage of that too. 
We will have to work through those issues, but I see there is a 
baseline building block that the Department of Defense is 
responsible for, and then NASA, Commerce, the commercial 
sector, can build on top of that for other applications and 
other needs.
    Mr. Norcross. But would you ultimately have veto power if 
there is a piece of information that is coming from the 
Commerce side over to you that you see.
    Mr. Rogers. Ms. Norcross, is your microphone on?
    Mr. Norcross. Hello.
    Mr. Rogers. There we go.
    Mr. Norcross. I usually can be heard. Do you ultimately 
have veto power on what information gets released?
    General Hyten. So I think veto power is maybe too strong a 
statement. We are not going to have veto power. But this is the 
way it would work from a Department of Defense perspective, the 
algorithm that we use that processes all of this information 
that comes in, it is exquisite information, and we are going to 
take commercial, international, we are going to take all the 
information that we get. But believe it or not, some of it is 
better than others. Some data is better than other data. And 
the algorithms will be able to tell. And so if the data that we 
get from whatever source is deemed not as good and not 
providing the most accurate answer, we won't use that data in 
our solution set. That is why it comes back to the 
authoritative catalog is the key.
    The authoritative catalog will take all the best data 
information. But at this point in time, from my perspective, 
all data is good, and then we will mathematically decide what 
is the best data.
    Mr. Norcross. And then on the commercial side is where you 
would make those decisions?
    Mr. Bridenstine. So there could be capabilities where 
somebody who has, maybe a commercial radar, or a commercial 
telescope that is creating their own data, that they could 
actually get data that the Commerce Department might not have. 
Or they could get data that even the DOD might not have. And 
then they could share that data with either or both.
    So we don't want to limit the idea that only the government 
can do it. We need to have partners that can share. One of the 
challenges sometimes, is that when you think about 
international data, they might not want to give it to Strategic 
Command. They might be willing to share data with Commerce. So 
that is a reason, another reason we need a civil authority 
doing this rather than simply the Department of Defense.
    It is a lot like NASA, as a matter of fact. A lot of 
countries around the world don't want to partner with the 
United States Air Force, but they love to partner with NASA, 
because we are a separate space agency capable of doing science 
and technology apart from any kind of military capability, so--
--
    Mr. Norcross. This is where you would allow the private 
sector who was doing this also in through those doors?
    Mr. Bridenstine. Absolutely. And a lot of that private 
sector might be more than happy to share the data with the 
Department of Defense or others, and, in fact, they already do, 
in many cases.
    General Hyten. That is why I say I hope they would share, 
but I can't guarantee that.
    Mr. Norcross. I yield back.
    Mr. Rogers. I thank the gentleman. The Chair now recognizes 
the gentleman from California, Mr. Rohrabacher, for 5 minutes.
    Mr. Rohrabacher. Thank you very much. And this is very 
gratifying. We have an administration that is clearly committed 
to focus on space and what we can utilize space for and what 
the dangers are and what the potential profit and benefit is. 
And especially when we have a Secretary of Commerce personally 
engaged, this has got to give a whole new energy to America's 
space efforts. And I am very proud of each and every one of you 
and proud of our President for also stepping forward in this 
way.
    I believe that we have reached a tipping point in space 
beside what I just described. And that is, we have now reached 
a time in space where we have capabilities of doing so much 
more than what we are doing today. And the private sector has 
the possibility of doing so much more because of our 
technological capabilities. But at the same time, we have 
reaching a tipping point where space debris may get in the way 
of us achieving that goal.
    So this is the first step that I have seen that we are 
taking space debris seriously and that will open the door for 
some of these other great potentials that we have.
    We have whole constellations in the private sector being 
proposed for remote sensing and observation that could be very 
profitable businesses, but we know that unless we come to grips 
with this space debris challenge, they will not be going up.
    Let me ask you this: And I appreciate the fact that we are 
now talking mainly about cataloging and bringing in even the 
private sector for helping us catalog the problem. And make 
sure we know what the problem and defining what it is. But have 
we given any thought to actually having the private sector, 
once it is cataloged, doing something about it, meaning, 
actually having the private sector help us in extracting and 
taking some of this space debris, bringing it down? I would 
just like to ask that to the panel.
    Mr. Bridenstine. Congressman, the answer is absolutely yes. 
Of course, NASA is very involved in making investments right 
now to do robotic servicing of satellites in orbit, which would 
be an absolute game changer. And when you think about the 
constellations that are going into low Earth orbit for 
communications, we are talking about thousands and thousands of 
satellites, what we don't want is each one of those satellites, 
when they become defunct, we don't want them just becoming a 
piece of space junk, right? We need to be able to either, A, 
service them, or, B, de-orbit them. And I think there are good 
plans underway for that.
    But to the extent that NASA is making these investments in 
robotics, it is not just for servicing, it could ultimately be 
for, you know, the kind of activity you are talking about, 
which would be remediation, you know, getting objects out of 
space. But that has to become, as you mentioned, you want it 
done commercially. I think that would be beneficial to 
everybody. The way it becomes available commercially is 
ultimately to do robotics for servicing of satellites, have 
half a dozen, maybe even a dozen different companies, each with 
their own constellations of a dozen or more satellites doing 
robotic servicing.
    Once they are in orbit doing this activity commercially, 
because, again, they are doing it to serve customers that are 
providing, you know, DIRECTV, Dish Network, internet broadband 
from space, they are doing it for those purposes, well, then, 
while they are there, they can also do some remediation and the 
United States Government can actually pay for that service.
    So this is an architecture that needs to be developed. NASA 
is making investments, like I said, in the robotics. We are 
making investments in rendezvous and proximity operations 
autonomy, propulsion capabilities that can have a specific 
impulse that can keep us, our satellites active for a very long 
period of time.
    So navigation, of course, the sensing that is necessary to 
do ultimately the approaches and rendezvous and proximity. So 
we are absolutely right now making investments in that 
activity. When it is going to be sufficiently mature to move 
out on what I think you are hoping that we can do, I don't have 
answer for that at this time, but certainly----
    Mr. Rohrabacher. All of you are laying the foundation 
towards the next step. And without taking care of this 
challenge, we will impede all the other great things that 
humankind is capable of.
    So thank you all. And Secretary Ross, especially thank you. 
The general is out protecting our country in so many ways, and 
this is part of it. And Secretary Ross, you are the guy who is 
going to oversee commerce in the United States, and, you know, 
this industry, the aerospace industry is a tremendous asset to 
our country, and we are relying on you to, as you are showing 
today, take leadership and keeping that a major part of our 
economy.
    Secretary Ross. Thank you, sir.
    Mr. Rohrabacher. All right. God bless.
    Mr. Rogers. The gentleman yield back?
    Mr. Rohrabacher. Yeah. My time was up anyway.
    Mr. Rogers. The Chair now recognizes Mr. Perlmutter for 5 
minutes.
    Mr. Perlmutter. Thank you, Mr. Chairman. And, gentlemen, 
thank you for your testimony today.
    I just want to sort of get back to some basics just so I 
understand the terminology here, because we are talking about 
space situational awareness, which seems kind of wonky, and 
traffic management.
    So General, from your testimony, I understand you, the Air 
Force, Department of Defense, would be, in effect, in charge of 
the space situational awareness with your monitoring capacity. 
Is that right?
    General Hyten. Space situational awareness is a mission for 
the Department of Defense, and we will continue to do that 
mission. But it is interesting when you relate it to space 
traffic management, because the reason we started doing the 
space situational awareness mission, it was one of the--it was 
the foundation of the space control mission when I started this 
business 30-something years ago. We did it for space control. 
But when we started attaching space traffic management to it, 
we started thinking the catalog was actually to enable space 
traffic management.
    That is not why we do SSA. We do SSA to help defend 
ourselves against threats. And by having somebody else 
responsible for the space traffic management picture, the 
Department of Commerce in this case, will allow us to get back 
to using our SSA mission to focus on our space control mission, 
which is the essential piece, and somebody else will be doing 
the space traffic management. It is not that we don't have a 
role to play. We do. But that is not our focus.
    Mr. Perlmutter. But your main role is to just catalog and 
gather all of this information, which, then, you will share 
with NASA and with the Department of Commerce and other 
important agencies----
    General Hyten. Yes, sir.
    Mr. Perlmutter [continuing]. Intelligence agencies, 
whatever they may be.
    General Hyten. Exactly.
    Mr. Perlmutter. So Mr. Secretary, let me turn my 
questioning to you. So under this approach that has come out of 
the Space Council and from the administration, Commerce is in 
charge of traffic management. And so, that is a concept that is 
not so hard for me to understand, because I just think about, 
okay, who is the law enforcement? You know, who gives the 
tickets? You know, who tows the abandoned vehicle? Who plows 
the road? You know, how do these kinds of things occur. And 
some of it is going to be commercial and some of it will be 
regulatory. I mean, is that how you look at this?
    Secretary Ross. Yes, I do. And as you are probably aware, 
we already have very extensive collaboration and cooperation 
with Department of Defense in our export control activities, 
because those interface both with national defense and with our 
job as being the ones to find people who are violating 
sanctions on countries, who are planning to export militarily 
sensitive materials.
    So we have a pretty well-established vocabulary of how to 
deal, between the Department of Defense and ourselves, and this 
will just be another addition to that.
    And I agree with what the general said. One size doesn't 
fit all. There are going to have to be adjustments as we go 
along. And the technologies will evolve, new space ventures 
will evolve. You are going to get into lunar habitation, you 
may very well get into asteroid mining, all kinds of 
activities----
    Mr. Perlmutter. So I am comfortable with--I mean, somebody 
in this hierarchy has got to take the lead on if there is a 
collision, you know, whose insurance pays for it.
    Secretary Ross. Right.
    Mr. Perlmutter. You know, that kind of thing. And Mr. 
Administrator, you and I have had this conversation several 
times. What are your thoughts, just the basics of this?
    Mr. Bridenstine. A few things. As a pilot, if somebody says 
to you on the radio, ``Call sign turn right 030 descend, 
maintain 10,000 feet,'' you do it. Why? Because if you don't, 
it is illegal and you could possibly die. So that is why you do 
it.
    Right now in space, nobody has authority to compel you to 
maneuver. They can tell you, either the Department of Defense, 
the Strategic Command, can tell you it is a good idea, but they 
can't tell you to do it. So that is the difference between 
space situational awareness, and, ultimately, space traffic 
management.
    One of the challenges with space traffic management is if 
you compel somebody to maneuver, you could be burning 4 months 
of their station-keeping fuel just to prevent them from having 
a collision. And the best we can do these days, in some cases--
not all cases, but in some cases--the best we could do is, you 
know, there is 1 in 10,000 chances that your satellite will 
collide with another satellite.
    And are you going to burn 4 months' worth of station-
keeping fuel and give up 4 months' worth of potential revenue 
as a company in order to avoid a 1-in-10,000 chance? Now, the 
answer is you are probably not, but when you think about the 
catastrophic consequences of not maneuvering, should that 1-in-
10,000 chance occur, you can deny access to space or at least 
make it more problematic for, you know, generations to come.
    So this is a big deal. There has to be some agency that is 
capable of doing that. Again, I want to be clear, because this 
makes a lot of space operators nervous, we want an absolute 
minimal regulatory burden with maximum regulatory certainty and 
safety.
    Mr. Perlmutter. But there has to be some kind of 
management. And I agree with that, and I yield back to the 
Chair.
    Mr. Rogers. I thank the gentleman. The Chair now recognizes 
Mr. Brooks for 5 minutes.
    Mr. Brooks. Thank you, Mr. Chairman. Forgive me for 
diverging from the primary focus of this hearing, but it occurs 
to me that each of you has significant persuasive influence on 
where the new Space Command will be headquartered, so I am 
going touch on that for just a moment.
    In that vein, I hope you will help make Redstone Arsenal a 
finalist in the Space Command headquarters debate. Redstone 
Arsenal has a lot to offer. We have, related to Space Command, 
either related a lot or related a little, the following Space 
Command activities: United States Army Aviation and Missile 
Command; Aviation and Missile Research, Development, and 
Engineering Center; PEO [Program Executive Office] Missiles and 
Space; United States Army Space and Missile Command; Army 
Forces Strategic Command; United States Missile Defense Agency; 
Defense Intelligence Agency Missile and Space Intelligence 
Center; NASA's Marshall Space Flight Center, which is the home 
and birthplace of America's space program; a wealth of 
intellectual talent, engineers--we have the highest 
concentration of engineers in the United States of America--
physicists, mathematicians, scientists.
    In conclusion, I hope you will concur that Redstone Arsenal 
and the Space Command seem like an excellent fit.
    Now, with that sales pitch behind me, let's go more to the 
substance of this particular hearing. I do appreciate your 
indulgence, and I know you-all all have persuasive influence on 
the ultimate outcome of that Space Command location debate.
    I know that the Department of Defense has done some interim 
work with the Federal Aviation Administration on SSA. With 
respect to Jim Bridenstine's Space Renaissance Act from last 
Congress, to put the one-stop shop for commercial space at the 
Department of Transportation, not the Department of Commerce, 
what would be your insight, your perspective on where we are 
looking at now?
    Mr. Bridenstine. A great question. As you just recognized, 
I have, in the past, sponsored legislation, authored 
legislation to have the one-stop shop be at FAA AST [Office of 
Commercial Space Transportation], especially taking AST and 
moving it out of the FAA and making it a direct report to the 
Department of Transportation, specifically to the Secretary.
    So that was legislation that I ran a couple of years ago to 
really force the conversation about this kind of activity and 
how important it is.
    Now, I would also tell you as a member of the Science 
Committee, Space Subcommittee specifically, I have voted 
multiple times on the American Space Commerce Free Enterprise 
Act, which puts this at Commerce.
    So my views on this, of course, have shifted, but I think 
more importantly than anything else, it has to be done. And to 
me, it doesn't matter so much where, just the fact that we 
don't have time to waste anymore. And if we get caught in 
whether it is a parochial issue or a jurisdictional issue among 
committees, and this thing gets held up for a year or two, we 
are at risk, especially when you consider the large 
constellations that are going to be put into low Earth orbit.
    I think Secretary Ross has made a compelling argument for 
why it should be Commerce. I fully support that, and I am ready 
to move out on it.
    Mr. Brooks. General Hyten, question for you, but first a 
comment.
    It is always good to see someone with the success that you 
have enjoyed from my hometown, Huntsville, Alabama. So any time 
you get a chance to come back, we have got over 100 generals 
who have retired there. I am sure you would be welcome, too, 
when that time comes.
    General Hyten. Are you trying to retire me, Congressman?
    Mr. Brooks. This question is for you. What is your 
assessment today of the Department of Commerce's ability to 
manage these authorities, and do they have the proper resources 
and personnel needed to manage these authorities? And if not, 
what is your opinion on what is needed to get them there?
    General Hyten. So, I guess if it is a yes-or-no question 
which you just asked, then the answer is no, they don't have 
all the things they need to do.
    But Secretary Ross realizes that, and he has committed 
inside the National Space Council, he has committed to me at 
breakfast this morning, that he is going to identify the right 
people if he has to go down this path and put those people at 
this job.
    His folks have been unbelievably transparent and helpful in 
defining what this space traffic management piece would be in 
the Department of Commerce. They have been straightforward.
    So he does not have all the issues he will need to do that 
job in the future, but he has committed to making sure he 
identifies those and pursues those. I am sure he will be 
working with you on that issue in the future.
    Mr. Brooks. Well, with respect to Secretary Ross and 
General Hyten, and, of course, Jim Bridenstine, I happen to 
serve on the--I am vice chair of the Space Subcommittee of SST 
[Science, Space, and Technology Committee], and I am also on 
the Strategic Forces Committee of House Armed Services 
Committee.
    So if there is anything I can do to help ensure that the 
Department of Commerce has the resources it needs, please let 
me know in wearing one hat or the other.
    Mr. Chairman, I yield back the remainder of my time.
    Mr. Rogers. I thank the gentleman.
    The Chair now recognizes Mr. Lamb for 5 minutes.
    Mr. Lamb. Thank you, Mr. Chairman.
    Mr. Bridenstine, first question for you.
    You mentioned a couple times that you thought that if we 
took the lead on SSA in the United States and developed a 
better system through the Department of Commerce and worked 
with private enterprise, that that would actually give the 
United States a competitive advantage when it came to firms 
actually opening their businesses and putting their capital 
here in the future.
    Would you mind elaborating on exactly how that would work? 
Because I am just sort of picturing if what we are doing is 
really making data available, why would that actually give 
firms an incentive to locate in the United States? Or how could 
we make sure that it does, I guess?
    Mr. Bridenstine. Great question. So the idea is that we 
have companies that are international, investing, in many 
cases, billions of dollars into constellations that will be in 
low Earth orbit. And those companies are going to be looking 
for opportunities to protect their investments. How safe of a 
regime are they going to have, and certainly, they are going to 
want access to, you know, what the United States has to offer.
    Now, it is absolutely true that given the current regime 
that exists right now, the Department of Defense, through 
STRATCOM, ultimately provides space situational awareness and 
conjunction analysis to the entire world, and they do it for 
free. And they do it for free because we have to protect the 
space domain.
    I mean, if you look historically, the Department of Defense 
got into this business because they were trying to protect 
American national security interest. Well, it is still in 
America's national security interest to prevent collisions and 
more orbital debris in space.
    But I do believe that if the United States of America has a 
regime that could be commercial, and it could be led by a 
civilian agency, that a lot of companies all over the world are 
going to want to establish American companies to get the 
absolute best data for the protection of their $1 billion 
investments, or $100 million investments, big investments.
    And that, I think, is good for America. It grows the 
economy, it helps our balance of payments and our trade 
deficit, and I think that that is a big piece of what we ought 
to be doing. It also could lower insurance premiums if they 
have access to that data.
    Mr. Lamb. Does that place the onus on us, then, to make 
sure that any data-sharing from the civilian agency with 
private firms would be dependent on that private firm having an 
American presence, essentially?
    Mr. Bridenstine. So there is different levels. We talked 
about having basic SSA data that would be necessary for safety, 
in general. And then there is data that could be made available 
from commercial operators that would provide an enhanced level 
of protection, if you will. And so finding that right balance, 
I think, is important, because we want to have a competitive 
market where we are trying to get more data and better data.
    But as everybody here has agreed, it is inherently 
governmental, because ultimately, it is in everybody's interest 
to protect space. So we have to have that civil agency that is 
responsible for it ultimately.
    Mr. Lamb. Thank you. General Hyten, I just wanted to follow 
up on a point in your testimony about our adversaries, other 
countries, even some of our allies making increasing 
investments in space at the same time. Can you talk about any 
of those to the extent you are able here that should concern us 
or that make the space more competitive than we might realize, 
investments being made by other countries?
    General Hyten. So both China and Russia have invested 
enormous amounts of their national treasure to build 
capabilities for the sole purpose of countering the United 
States advantage in space. They built ground-based 
capabilities, space-based capabilities, a variety of different 
technologies that I can't go into in this hearing. But enormous 
amounts of their treasure with the sole purpose, it is not for 
something going on in the Western Pacific, it is nothing for 
going on--the sole purpose is to counter the United States 
advantages in space.
    And as the commander responsible for defending the Nation 
in that domain, I have to look at those capabilities as real 
threats. And that means I have to develop counters to those 
threats, which is why the first thing I have to have, just like 
in any other domain, is exquisite situational awareness of what 
is happening in that domain so I can respond quickly enough. 
That is the same in air, land, sea. It is the same in space.
    Mr. Lamb. Are they spending more than us in any of these 
domains, General, or just more than they have in the past?
    General Hyten. I can't go into specifics, but in certain 
areas they are investing more than we are. Our capabilities are 
so huge, enormous, powerful that the capabilities they have 
really can't impact us today. But what we have to make sure is 
that 10 years from now, 20 years from now that is still the 
same. That is the challenge.
    Mr. Lamb. Thank you very much.
    And thank you, Mr. Chairman, I yield back.
    Mr. Rogers. I thank the gentleman.
    At this point, we are going to pause for a minute. While we 
very much appreciate Secretary Ross and his participation in 
this hearing has been very helpful, he has been called to the 
White House. So we are going to excuse the Secretary and take 
any further questions for him for the record, and allow him 10 
days to provide a written response to the member who has a 
question. And with that, thank you, Mr. Ross, and you are 
excused.
    Secretary Ross. Thank you, Mr. Chairman.
    Mr. Rogers. The Chair recognizes the gentleman from 
Louisiana, Mr. Higgins, for 5 minutes.
    Mr. Higgins. Thank you, Mr. Chairman.
    Gentlemen, thank you for your service to your country. 
Administrator Bridenstine, you display a tremendous amount of 
common sense, which makes it very clear why you are no longer 
in Congress.
    You gentlemen have provided excellent testimony in a very 
fascinating time in our history of mankind where space has 
clearly become a theater of engagement militarily, while at the 
same time is a new frontier for tremendous expansion of 
commercial activity.
    We have models like this, of course, throughout the history 
of man, there has never been a theater of engagement that did 
not include civilian commercial activity, be it by land, sea, 
or air. So the models of the past, as they help us to plan for 
the future, I believe we are on the right track here, because 
the DOD needs to handle defense and warfare capabilities in any 
theater of engagement. And to divest itself--and it is 
understandable why over the last, you know, several decades, 
DOD has become deeply involved, it is obvious that cataloging 
the activities in space, because of the responsibility of 
recognizing space as a theater of engagement, it is 
understandable why this has happened and got to this point, 
where DOD is doing a tremendous amount of activity that pulls 
it away from warfare capabilities. And it makes sense that at 
this juncture we would divest some of those responsibilities to 
the appropriate agency.
    So with respect to my colleagues on both sides of the 
aisle, I believe what we endeavor to determine with absolute 
certainty is which civilian agency is appropriate to relieve 
that burden from DOD. So it has been suggested, and I am 
leaning yes to concur, that the Department of Commerce is that 
agency.
    So General, is this a good idea? Is this a win for America 
and for the defense of our Nation?
    General Hyten. So, Congressman, this is actually a great 
day. Probably should have said that earlier on. Because this is 
a day that we have been looking for for a long time. We have 
had interesting dynamics. The first time you see a collision 
between a piece of debris and a Chinese satellite, what are you 
supposed to do?
    Well, I remember that conversation, and the commander 
saying, tell them. You know, we don't want a collision to 
happen. But how is that a Department of Defense mission? And so 
we started a long time ago trying to figure out how do we do 
this differently? That shouldn't be the responsibility of the 
Department of Defense. We shouldn't be forcing our airmen, 
soldiers, Marines, to make those kinds of decisions. That is 
clearly other elements of our government.
    So we have gone back and forth where it needs to be. The 
administration has decided Commerce is the place. Secretary 
Ross has jumped in and said, I am the guy, let's go ahead and 
do that. I am all in with that. I am all in. I think that is 
the right decision. We just ought to go.
    Administrator Bridenstine said the same thing a while ago. 
We got to just go now. It is the time. We can't waste any more 
time.
    Mr. Higgins. I concur. Administrator, would you comment on 
that question, please?
    Mr. Bridenstine. Here is what I would like to share. I 
think it is an important philosophical debate, but when you 
look at the expansion of humanity, whether humanity is crossing 
the Atlantic or crossing the continents from, you know, from 
east to west, or expanding into space, if you will, it is all 
driven by commerce.
    And philosophically, if we are going to go further, it is 
going to be driven by commerce. And the resources that are 
available in space are quite frankly, they are limitless. And 
so Commerce, I think should take the helm here for that basic 
philosophical reason.
    The other thing that is important to note is that space has 
transformed all of our lives, and we are now dependent on space 
in ways we never--a lot of Americans don't recognize how 
dependent we are on space. The way we navigate, the way we 
communicate, the way we produce food, the way we produce 
energy, how we do disaster relief, predict weather, monitor the 
climate, the way we do national security and defense. All of it 
depends on space.
    In fact, the GPS signal is required for banking. If we lose 
the GPS signal, that changes. In fact, it could be catastrophic 
for our country. If you lose the GPS signal, you can't do 
banking, next thing you know there is no milk in the grocery 
store. Civil unrest. That is a huge challenge.
    So here is the important thing, going back in time when you 
think about the history of naval power, for example, Alfred 
Thayer Mahan, he was a great theorist on naval power, commerce 
ultimately results in that commerce being threatened.
    And that is what is happening right now. Our entire way of 
life is dependent on space. And our, not enemies necessarily, 
but our competitors know that, and they are developing 
capabilities to thwart our way of life.
    And so if commerce is important for the power of nations as 
Alfred Thayer Mahan said back in the 1800s, then defending that 
commerce is also important as well, or protecting that 
commerce, which is, again, why I believe it is perfectly 
legitimate and good that Commerce take the helm of providing 
space situational awareness and space traffic management.
    Mr. Higgins. Gentleman, you present a compelling argument. 
Mr. Chairman, my time has expired. I yield back.
    Mr. Rogers. I thank the gentleman. The Chair now recognizes 
the gentleman from Oklahoma, Mr. Lucas, for 5 minutes.
    Mr. Lucas. Thank you, Mr. Chairman. And in response to your 
invitation, I have a question for Secretary Ross that I will 
submit basically noting my curiosity about as we transition to 
this new plan, since I don't see anything in the fiscal year 
2018 and 2019 budgets to help the Department of Commerce 
finance that, how they plan on addressing it. But I will submit 
that in writing.
    If I could turn now to my fellow Oklahoman, the 
administrator, Mr. Bridenstine. First of all, I promised your 
constituents I will provide the most intense oversight----
    Mr. Bridenstine. Oh my goodness.
    Mr. Lucas [continuing]. Of your life for the rest of your 
career in that role, which would be an awesome experience. Just 
taking care of my fellow Oklahomans' concerns.
    Let's talk for a moment, though, in general, if you would, 
since this summer is the 60th anniversary of the legislation 
that created your agency when the Eisenhower administration and 
our predecessors in Congress determined that we needed to have 
a civilian perspective on space exploration.
    As we talk today about what Commerce is going to do and the 
continued important mission of the Department of Defense, where 
do you envision NASA actually playing as these issues evolve 
over the coming decades?
    Mr. Bridenstine. So NASA is an agency, we do discovery and 
exploration. We do science. And, of course, we are not involved 
in national security space. We are not involved in defense. But 
certainly, we want to make sure that our assets are secure. And 
that is when you think about space situational awareness, space 
traffic management. And the fact that we have humans in orbit 
right now, we have to be very aware of the space environment 
and the risk that it poses to our astronauts.
    So I like how you framed it, Chairman Lucas, that in 1958, 
Eisenhower created NASA. He did it with an expressed intent 
that space exploration not be part of the Department of 
Defense. He wanted it intentionally separate. He wanted a 
peaceful agency that can partner with the rest of the world in 
making civilization-changing discoveries. That was his 
objective.
    And what I would say now is we don't necessarily want space 
situational awareness and space traffic management to be a 
Department of Defense specific issue. Certainly, they are going 
to do that, but they don't have to do the conjunction analysis 
and warning for the entire world for free, and not to mention 
all of the commercial operators as well.
    So I think it is important to have a civil agency capable 
of doing that, just like Eisenhower envisioned for NASA back in 
1958.
    Mr. Lucas. General, some 30-plus years ago, I had a 
conversation at a public event with a colonel who was an 
officer in, I believe, what is probably your organization now 
30 years back. And as a nonpublic official, I spent a little 
bit of time asking him a variety of questions, being 
inquisitive. And he was one of the most cautious, methodical, 
thorough officers I have seen. He said absolutely nothing.
    But I finally asked him a question, and I will ask you a 
question, the same question I asked him. How do you sleep at 
night? Thirty-some years ago he said, I sleep very well at 
night. How do you sleep at night with your responsibilities?
    General Hyten. I sleep very well.
    Mr. Lucas. Thank you for the answer I wanted.
    I yield back, Mr. Chairman.
    General Hyten. One comment on that. It is important. The 
reason I sleep well, as I mentioned in my opening statement, 
because I have 162,000 of the best and brightest that America 
has to offer that do the job every day. And they actually do 
the work. I don't do any of the work. They do the work.
    And because they are out there deployed under the ground, 
under the sea, in the air, operating in space, that should 
allow you to sleep well, because it allows me to sleep well.
    Mr. Lucas. And that is the exact point I wanted you to 
make, General, because the general public does not have an 
understanding or an appreciation for all of that. And for 30-
plus years this important role has been fulfilled.
    Again, thank you. I yield back, Mr. Chairman.
    Mr. Rogers. I thank the gentleman. The Chair now recognizes 
the gentleman from Georgia, Mr. Hice, for 5 minutes.
    Mr. Hice. Thank you, Mr. Chairman. And I will just say to 
the administrator, welcome back. We are honored that you are in 
the role you are in. We will miss you here, but you are the 
right person for this position at this time, and we are honored 
deeply that you are in that role. And welcome back here today.
    Mr. Bridenstine. Thank you.
    Mr. Hice. General, let me begin with you. Just in light of 
all the conversation today, how do you prioritize the competing 
interests and needs between DOD, commercial, and SSA 
requirements?
    General Hyten. So it goes back to the discussion of a 
building block. So the building block, the essential building 
block, from my perspective, is our national security. And so 
that is the first thing that I have to worry about. Do we have 
enough information, enough situational awareness to allow me to 
exercise the authorities and responsibilities that have been 
given to me for the mission of Strategic Command and defend our 
Nation in space.
    That is the first priority. That is the priority that the 
United States Department of Defense has to pay for, has to 
understand, et cetera. We have chosen over the last 9 years, 
since the Iridium-Cosmos collision, to pay for kind of the rest 
of the world, both with resources in manpower and money to 
provide that kind of collision warning, situational awareness 
for the world because we realized after the Iridium-Cosmos 
collision in 2009, if a collision occurs it is really bad for 
the security of America and for the security of the world.
    So nobody was doing it, so we said we can do it, so we did. 
But ever since that time, we have been looking for the 
structure that will allow us to just focus on our national 
security mission and have somebody else do that. Somebody else 
also pay the resources for that additional function. Not above 
the baseline. We still have to continue to do the baseline, but 
all those other pieces from that.
    Now, the Space Policy Directive-3 designates the Department 
of Commerce is the person to step up and do that, and Secretary 
Ross has said he is the guy, he is going to step up and do 
that. And that is what we, in the Department of Defense, have 
been looking for, for a number of years. So we are happy with 
where we are right now.
    Mr. Hice. So are you saying the Department of Defense will 
be the top priority followed by SSA, then commercial? Is that 
kind of----
    General Hyten. Well, from an SSA perspective, not from a 
space traffic management perspective.
    Mr. Hice. Okay.
    General Hyten. Space traffic management should be somebody 
else's job, but we have to focus on what we need from space 
situational awareness in order to allow us to defend ourselves 
in space, and defend ourselves against any adversaries that 
might challenge us in space. That means exquisite situational 
awareness. It just so happens that that information is what is 
also needed for space traffic management.
    But we will give that data to somebody else to process, to 
do the analysis, to reach out, to reach out to nations, to 
reach out to companies. We have been doing that, and we have 
been making it up. And I am pretty proud of the folks that have 
been making that up, because it is a miracle to me that we 
haven't had a collision, but that should be somebody else's 
job.
    Mr. Hice. Then in light of that, how much currently, how 
much manpower and resources and so forth do you use when 
dedicating efforts to negotiate SSA agreements with commercial 
foreign states and so forth?
    General Hyten. So for negotiating SSA agreements, it has 
been very small.
    Mr. Hice. Okay.
    General Hyten. It is four or five people on my staff that 
do that work, and that is not their only job. They have other 
jobs that they do as well. But that is one of their additional 
duties, is to focus on that.
    Mr. Hice. Okay.
    General Hyten. But the biggest impact, though, is the 
people that have to actually do the work, the processing. That 
number is in the dozens. That is what will be offloaded to 
significant numbers that will free them up to do what I believe 
is the real warfighting missions.
    Mr. Hice. Okay. So in freeing that up, you will be able to 
better utilize it for defense purposes?
    General Hyten. Exactly.
    Mr. Hice. Mr. Administrator, I heard you bring up earlier, 
and let me just ask you this, how will the trend that is 
currently underway for small satellites affect SSA capabilities 
and beyond?
    Mr. Bridenstine. That is another great question. So every 
orbital regime is different. Of course, we have a lot of assets 
in low Earth orbit. We have a lot of assets in geostationary 
orbit. Those are two orbits that are critically important and 
they will require a space situational awareness and space 
traffic management regime that is very different than a medium 
Earth orbit or an orbit that is below low Earth orbit.
    You know, sometimes I have heard people make the argument 
that CubeSats ought to be below the International Space Station 
in order to not necessarily be regulated at all with STM or 
SSA. That if you are below the ISS, you are going to be de-
orbiting just based on the trace atmosphere at that level 
within 5 to 10 years anyway, so we don't really need a regime.
    So what I would say is it is not necessarily the size of 
the satellite that matters, but what matters is where that 
satellite is positioned and the different orbital regimes are 
going to have different kind of requirements for, you know, 
where they are located.
    Mr. Hice. Okay. Again, thank you both, gentlemen, for all 
you do. We are honored.
    I yield back.
    Mr. Rogers. The gentleman yields back. The Chair now 
recognizes Mr. Mitchell for 5 minutes.
    Mr. Mitchell. Thank you, Mr. Chair. First, Mr. Bridenstine, 
I want to congratulate you on becoming the administrator. And 
thank you, as your departing the committee gave me the 
opportunity to join the committee. So congratulations. And I am 
warming your chair, I guess.
    Mr. Bridenstine. You are, indeed. Thank you for doing that.
    Mr. Mitchell. It is an honor, sir.
    Question, if you could relay to also Mr. Ross, who will 
submit to the committee.
    You had advocated as well that this, this situational 
awareness or traffic management go to the FAA. And the FAA is 
currently involved in that they certify launches, aircraft that 
are launched, they provide certification for that in this 
process.
    Can you share with me how much involvement the FAA has been 
in this process as this transition is going on, and I will ask 
the same question of Secretary Ross as well.
    Mr. Bridenstine. Sure. So I will be honest. I have been in 
Congress until about 7 or 8 weeks ago, so I wasn't part of all 
the negotiations that got to the point where we were ready to 
announce SPD-3, so I do know that FAA was involved. There were 
meetings in the National Space Council where this discussion 
was had.
    How robust it was and who said what and when, I am not 100 
percent sure. But I can tell you that everybody is in agreement 
that I have talked to that this has to be done in a civil 
agency.
    Mr. Mitchell. Agreed.
    Mr. Bridenstine. And, you know, Commerce is a good place to 
do it. It is also important to note, as Secretary Ross noted, 
that Commerce is involved in space in a robust way already. A 
lot of people don't realize the National Oceanic and 
Atmospheric Administration, about 40 percent of their budget is 
space-related activities. And, of course, that is controlled by 
Commerce. And ultimately, they make purchases for those 
activities, and NASA is involved in buying a lot of their 
satellites, or at least doing a lot of the requirements 
generation and then the activities that are necessary to 
acquire those satellites.
    So NASA is involved in that. But it is a Commerce function. 
It is also important to note that Commerce is involved in 
remote sensing licensing, and that kind of activity. So there 
is a lot of activities that are done both in Commerce and the 
FAA.
    A couple of years ago when I drafted that bill, you know, 
my thought was, we will put it at FAA and we will take 
everything and put it at FAA. It appears now that the right 
course of action given the consensus that has been come to is 
that it be at Commerce. And I fully support that. The key is, 
it needs to be done. That needs to happen.
    Mr. Mitchell. I agree that does need to be done.
    One of the questions I have, as you well know, is space and 
commercial FAA-type traffic isn't a clean division. There is 
clearly, and I have talked with several folks involved, SpaceX 
and others. There is an overlap of that. How do you reconcile 
and maybe, General, you have some feedback, how do you 
reconcile that or make it work?
    Mr. Bridenstine. I will take it real quick. There are a lot 
of seams here that are critically important. As you mentioned, 
if you are going to get to space, you are going to have to go 
through the National Airspace System, number one. Then when you 
get to space, eventually you are going to potentially de-orbit 
if you are in low Earth orbit.
    And so in each of these cases, you are going to be taking 
advantage of the National Airspace System. One of the 
challenges that we have right now is when a launch occurs, the 
National Airspace System for a geographic region gets shut down 
for a number of hours and commercial air traffic has to go 
around it. And it costs a lot of money and puts a big burden on 
industry.
    We want that to shrink. So whether it is launch or a whole 
host of other activities, Commerce is going to have to work 
with FAA and vice versa. And so these seams have to be really 
well thought out and we need to prepare for them, but that is 
going to happen regardless of where it is. Commerce and FAA are 
going to have to work together to make it happen.
    Mr. Mitchell. Agreed. My concern was, I admit, I sit on TI 
[Transportation and Infrastructure Committee], and I am on the 
Aviation Subcommittee.
    Mr. Bridenstine. There you go.
    Mr. Mitchell. I didn't see here, and I would encourage some 
description of how actually you engage with the FAA on this 
because I think there is, not just launch, but, in fact, 
failure of a launch, that area needs to be closed. All the 
risks and factors affect that civil aviation, that airspace 
now.
    General, do you have anything you wish to add to that, sir?
    General Hyten. So I agree with the administrator. The key 
there is when it comes to space, every element of the 
government is involved. Some in big ways, some in small ways, 
which means there is always going to be seams. So the way you 
handle seams is with clear authorities and responsibilities. 
And the authority to the Secretary of Defense is to defend the 
Nation. The authority to the Commerce is to promote commerce.
    Now, you have to decide, for this space traffic management, 
where is the best place to put the authority? The 
administration has decided the Department of Commerce is the 
best place to put that. But that doesn't mean that--the FAA 
still has a role, the Department of Defense still has a role, 
NASA still has a role. We all are going to have roles as we go 
through this, but we all have to align under some--because if 
we don't, we will just keep doing it.
    Mr. Mitchell. I appreciate that. And I would suggest that 
maybe a little more clarity, and I will share with Secretary 
Ross as well, in terms of what those seams are and that role of 
the FAA so that we don't end up losing something there. I think 
it would be critically important.
    I appreciate your answers. And I yield back, Mr. Chair.
    Mr. Rogers. I thank the gentleman.
    The Chair now recognize Mr. Beyer for 5 minutes.
    Mr. Beyer. Thank you, Mr. Chairman. General, Administrator, 
thanks so much for being with us all morning.
    Administrator Bridenstine, I am very impressed with the 
many things NASA is doing in the space. The new Space Fence 
radar; the NASA Orbital Debris Engineering Model which predicts 
what is coming in the next 30 to 35 years; the LEO-to-GEO [low 
Earth orbit to geosynchronous Earth orbit] Environment Debris 
model, LEGEND, which looks at what the environment is going to 
be like in 100 to 200 years.
    Can you tell us what LEGEND tells us about this 100 to 200 
year? Is space going to become ever more crowded and ever more 
dangerous?
    Mr. Bridenstine. Absolutely. So just to be clear, Space 
Fence is not a NASA project; it is a DOD project. But we 
certainly will benefit from it. I am a little concerned that we 
are going to learn about so much space debris that our 
astronauts are going to be sheltering in place a lot more than 
they are right now. In fact, we haven't sheltered in place 
since 2015.
    Once we have more situational awareness on all the debris 
that is out there, it could--you know, once you know what you 
need to be worried about, you get more worried about it. So 
there is a concern there on my end.
    Mr. Beyer. Administrator, let me ask you the most naive 
question of the morning. Is there anything we can do to collect 
the debris that is out there?
    Mr. Bridenstine. There are certain technologies that are 
being developed. NASA, of course, is involved in robotic 
servicing of satellites. It is a project we have right now 
underway that is called Restore-L, and we are going to service 
a Landsat-7 satellite, which is a good project.
    But ultimately, if we want to do robotic servicing in a way 
that is beneficial to our country and game-changing, we need to 
develop robotic technologies that can then be licensed to a 
dozen companies, and each of those companies could have a dozen 
satellites in low Earth orbit doing robotic servicing of 
satellites. When we get to that position, it is absolutely 
possible that we could hire some of those commercial companies 
to remove orbital debris.
    So that is certainly within the realm of possibility and a 
futuristic kind of thought, a futuristic kind of thinking about 
how to deal with the orbital debris population.
    Mr. Beyer. It would certainly, if you look at that 30 to 35 
years or 100 to 200 years. I am working on the assumption that 
mankind is going to put ever more debris up there year after 
year.
    Mr. Bridenstine. That is true. It is also true that the 
biggest risk to missions in low Earth orbit, the biggest risk 
is from objects that are too small to even track. So we can 
kind of create a statistical model as to what the environment 
looks like and create probabilities about how long a satellite 
can last in low Earth orbit, given the pelting that it is going 
to receive from debris, and how much shielding it might need to 
have.
    So we can create those statistical models. But ultimately, 
the biggest risk is from objects that we can't even track right 
now. So it is going to be hard to remove them if we don't know 
that they are there specifically.
    Mr. Beyer. Mr. Administrator, I know you have a hard 
science background with your triple major at Rice. Is there any 
value to the orbital degradation of the stuff or is it just too 
small to have the orbits degrade in our lifetimes?
    Mr. Bridenstine. Oh, they do degrade, especially in low 
Earth orbit. There is trace atmosphere. The gravity of the 
Earth is not uniform. And so we see a lot of these objects 
behaving in ways that sometimes are unanticipated.
    I know Dr. Moriba Jah was here just a few minutes ago from 
the University of Texas. He talks about the fact that a lot of 
these objects in space that are not even trackable or the 
objects that are trackable, we model them as if they are all 
perfect spheres, and they are not. We model them as if they 
don't spin or maneuver, and they do. We model them as if the 
Earth's gravity is perfectly uniform, and it's not.
    So there is a lot we need to learn about orbital debris and 
how it behaves so that ultimately we can get better data to 
ultimately make predictions and characterizations that can 
protect our assets and property.
    But you are hitting some very key points, which are it is a 
dangerous environment, we need to do the best we can to 
characterize that environment, and ultimately we need to be 
able to detect objects that are smaller than 10 centimeters, 
which is what we can do right now.
    Mr. Beyer. Let me ask you a small but probably important 
budget question. In your testimony, you talked about the 
Conjunction Assessment Risk Analysis office----
    Mr. Bridenstine. Yes.
    Mr. Beyer [continuing]. At Goddard, which I am sure you are 
very proud of, and that they have the primary role of checking 
65 spacecraft, et cetera, et cetera. Its budget is $4 million a 
year, and yet we know the rest of the things you are putting up 
there are billions of dollars. Are we spending enough money on 
the CARA office?
    Mr. Bridenstine. I think we are. Certainly, more money is 
better, but given the risk that we are seeing to our missions 
and their ability to assess those risks and then make 
determinations for maneuvers as necessary, I believe we are in 
a good position right now with the investments that we have.
    Mr. Beyer. Thank you, Mr. Administrator.
    I yield back, Mr. Chairman.
    Mr. Rogers. I thank the gentleman.
    The Chair now recognizes the gentleman from Florida, Mr. 
Dunn, for 5 minutes.
    Mr. Dunn. Thank you, Mr. Chairman.
    Administrator Bridenstine, Jim, it is great to see you 
here. I have a couple of questions about the services currently 
provided. So the Space Policy Directive reaffirmed the basic 
collision avoidance information services are and should 
continue to be provided free of user fees. Can you confirm that 
that is so going forward?
    Mr. Bridenstine. That is a big objective, again, because it 
is important for the United States of America to be preeminent 
here in this capability, and we want companies to locate in the 
United States believing that they are going to have these kind 
of services available through a civil agency. So I believe 
basic SSA is important for the safety of the space environment 
in general.
    Mr. Dunn. As do my constituents.
    Mr. Bridenstine. Okay, good.
    Mr. Dunn. In that same vein, if the government contracts 
with a private company to provide space situational awareness 
functions, in that situation will the data and the analytics 
continue to be available and will the raw data be available in 
repository form so that civilian companies can perform their 
own analytics?
    Mr. Bridenstine. So that is a wonderful question and not an 
easy one, but eventually the way I think it is going to go is 
there is going to be a basic SSA kind of capability that is 
available to everybody, and it will be without fee, which I 
think is important.
    But there are also going to be private companies that are 
going to want to give advantages to other private companies 
operating in space. And in order to provide that advantage, 
they are going to license their data to a private company and 
the U.S. Government might not have access to that.
    So that presents an opportunity for commercial companies to 
augment data and get better resolution, higher resolution. And 
really in a free market, you know, the United States Government 
can't confiscate that data.
    So I think there is going to be an architecture that is 
going to have a basic SSA capability, and then there are also 
going to be commercial companies that can come alongside and 
provide that to operators, maybe in their model. Other people 
might want to develop sensors and data and sell it directly to 
the government. That might be a model as well.
    Mr. Dunn. So specifically, can you address the raw data 
that the government currently gathers? Would that raw data be 
available to private companies?
    Mr. Bridenstine. It would be available to the public. Any 
government data would be available to the public. And right 
now, that data generally comes from STRATCOM through the JSpOC.
    Mr. Dunn. Let me ask you. Maybe I should have asked the 
general, he is holding that. But let me ask, what was the 
rationale for assigning the Department of Commerce, not NASA, 
as the lead civil agency for space situational awareness?
    Mr. Bridenstine. So NASA is an agency that does science and 
technology. We do discovery. We do exploration. What we don't 
do is regulate. That is historic----
    Mr. Dunn. I think that is good. I just wanted to get you on 
record, because I actually agree with that decision. I just 
wanted to get it out.
    General Hyten, space is being designated as a warfighting 
domain as well as a commercial domain. Where do you see the 
trend in space control sort of evolving for DOD in space 
situational awareness?
    General Hyten. It is interesting, because as the combatant 
commander with space as my joint operating area, I actually 
have two priorities and some people think they conflict.
    Priority number one is to defend this Nation against all 
threats. That means I have to be able to watch any threat, deal 
with any threat, defeat any threat. And I do that.
    But I also have an implied task that says I have to make 
sure that the space environment is safe for the future, because 
anything bad that happens in space, it is not like we were 
talking about cleaning up the environment a while ago. It is 
not like you can just go out right now and clean it up. You 
know, if you have a collision in space, the impacts are 
forever. So there is an implied task that I have to be able to 
operate safely in order to do that.
    That is why for the last 9 years we have stepped up to the 
job of providing that for the world. We will continue to do 
that until, hopefully, the Department of Commerce steps up in 
the near term to do that for us, because it is in our interest 
as a Nation to have a secure space environment.
    Mr. Dunn. I couldn't agree with you more, and I think you 
have done a great job. I hope you continue to have a great 
presence there.
    A comment. I was looking when I saw that Space Policy 
Directive Number 3 came out, I said, what were 1 and 2? So I 
had a chance to go back and look at that. And, you know, the 
SPD-1 was let's go to the moon and Mars. SPD-2 was let's 
streamline the space regulatory environment. And now I am 
looking at SPD-3 and I am looking at all the things it 
addresses, and my staff summed that up well for me. They said, 
just make space great again.
    Thank you very much, Mr. Chairman. I yield back.
    Mr. Rogers. I thank the gentleman.
    The Chair now recognizes Mr. Foster for 5 minutes.
    Mr. Foster. Thank you to our witnesses, and congratulations 
to Administrator Bridenstine.
    Mr. Bridenstine. Thank you.
    Mr. Foster. Nice to have you back. I would like, if you 
could, to speak a little bit about how you are viewing the 
international governance and enforcement of space commerce. You 
know, the United States is not alone. I think it's, you know, 
the rest of the world has roughly a comparable number of 
orbiting devices and that ratio is going to change over time.
    And so do you anticipate a future where every country 
pretty much goes its own way and regulates its own commerce and 
we have to worry about a race to the bottom for the lowest 
level of regulation which will be the lowest cost for 
multinational corporations, or do you anticipate that the U.S. 
regulator will serve underneath and be potentially overridden 
by an international body with regulation over all space 
activities?
    Mr. Bridenstine. That is a great question, Congressman. 
Currently, in some orbital regimes, the International 
Telecommunications Union, the ITU, which is a part of the 
United Nations, does license orbital slots for the 
international community. And, of course, American companies are 
involved in getting their orbital slots from the ITU. The ITU 
is also involved in allocating spectrum for commercial 
operators. So there is already an international component 
there.
    Maybe where at this point it is insufficient is what is 
happening largely in low Earth orbit, where there is a whole 
lot more debris and a whole lot more risk, I should say.
    And the answer is, right now there isn't that kind of 
international oversight in low Earth orbit the way there is in 
geostationary orbit. And what I would say is I think the 
direction we should go is we should set those standards, and 
NASA has a history of doing this.
    Mr. Foster. Right. But there is the enforcement problem 
when someone goes to a country that is not setting those 
standards, puts stuff up in space. Who says no and how is that 
enforced?
    Mr. Bridenstine. It is done through the ITU, which is----
    Mr. Foster. I mean, look at the South China Sea, right?
    Mr. Bridenstine. Right. No, that is right.
    Mr. Foster. You know, an international body clearly spoke 
and said that is not an acceptable activity, and a certain 
country that will remain nameless sort of is ignoring that. 
When that recurs in space, what is the scenario here that you 
are thinking of?
    Mr. Bridenstine. So as a pilot in the Navy, I used to 
operate in the Persian Gulf, and we would get challenged by 
various countries and they would say, you are operating in the 
wrong part of the world or whatever.
    And we would always go back and say, under ICAO procedures, 
the International Civil Aviation Organization, that we were a 
sovereign U.S. aircraft operating in international airspace, 
due regard. And that word ``due regard'' is ultimately what 
protects us from challenges from the international community.
    And I would argue that, you know, as it relates to us right 
now in space, we operate due regard. And I would say that as 
time goes on, American leadership might need to be a little 
stronger here so that ultimately we don't have collisions that 
beget more collisions.
    Mr. Foster. Okay. But what happens when two countries start 
fighting over mining the same asteroid or things like that? You 
know, is there any alternative to an international governance 
organization? And if there is not, why are we not prioritizing 
that first, to get that structure in place and get the U.S. 
regulators plugged into it?
    Mr. Bridenstine. I think the model that we utilize right 
now--and, of course, this is established through the Outer 
Space Treaty, where----
    Mr. Foster. Many countries are not signatories to the Outer 
Space Treaty, they have not ratified it, important countries, 
you know, like China, like others I could name.
    Mr. Bridenstine. Sure. So certainly that requires 
international pressure to get them to conform to the 
international standards.
    Mr. Foster. So is your concept here that U.S. regulation 
will be secondary to international regulation, or that we are 
just going to go make up our own rules?
    Mr. Bridenstine. I think we adhere to the treaties that are 
currently in place, specifically the Outer Space Treaty. And as 
long as, you know, we are operating under the obligations of 
our international treaty----
    Mr. Foster. Right. Which are incomplete and there will have 
to be detailed regulations. For example, if you look at 
cybersecurity, you can't have people put up swarms of 
satellites without enough cybersecurity that ensures they can't 
be hacked and use their station-keeping ability to go and, you 
know, knock out the ISS, or any of these sort of scenarios.
    There will have to be international standards on, for 
example, cybersecurity for any satellite with station-keeping 
ability. Okay. And there will be different--countries will have 
different opinions on that. If some country thinks that the 
U.S. standards are not high enough and we say no, that is too 
expensive, how do you anticipate that that decision will be 
handled?
    Mr. Bridenstine. So as far as your earlier suggestion that 
if we mine an asteroid and maybe somebody else wants to mine 
the same asteroid and that could result in a dispute, I think 
the odds of that are exceptionally small, but I think also at 
the same time we can operate due regard. And whoever extracts 
the resource has the rights to the resource under the Outer 
Space Treaty, which we are signatories to.
    Mr. Foster. All right. Well, I guess my time is up here. 
But, you know, I really urge you to think more about the 
international--you know, the idea that America acting alone is 
a reasonable model to proceed is not going to work. You know, 
50 years from now, the majority of objects in orbit are not 
going to be U.S. objects and we are not going to dominate space 
in the long term, and we should start planning for that and 
accept it rather than just pretending like the world is not 
changing.
    Mr. Bridenstine. I would argue that we are in compliance 
with our obligations under the Outer Space Treaty and other 
treaties, and that ultimately we will----
    Mr. Foster. Yeah, but we have to get all the countries on 
Earth to do this or it is not going to be too meaningful. And 
that is the thing that worries me. And we have to start by 
strengthening those agreements and making them uniform, and I 
don't see a lot of effort on this administration in plugging 
into a strong international regulatory regime.
    Mr. Bridenstine. There isn't a strong international 
regulatory regime.
    Mr. Foster. And that should be prioritized.
    I am over my time. I yield back.
    Mr. Bridenstine. And so we need to have American 
leadership.
    Mr. Rogers. The gentleman yields back.
    And that brings us to the conclusion of this hearing. I did 
want to point out that we had members having to come and go. So 
some members may have some questions they need to get to you 
all. So we are going to leave the record open for 10 days, if 
you could respond to those in writing.
    And also make note of something else. This is a very 
important area of interest, and that is demonstrated by the 
fact that we had 30 Members of Congress participate in this 
joint subcommittee hearing today, many of whom weren't even on 
the two subcommittees. And combined with if you went outside, 2 
hours before this hearing the line started forming to get in 
here. That usually only happens when the chiefs are here or the 
Secretary. People care about what you do. And we are very proud 
that we have got two competent individuals such as you serving 
in the roles that you have.
    So thank you for being here. It has been very helpful. This 
hearing is adjourned.
    [Whereupon, at 11:16 a.m., the subcommittees were 
adjourned.]



      
=======================================================================




                            A P P E N D I X

                             June 22, 2018

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             June 22, 2018

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
    

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             June 22, 2018

=======================================================================

      

      

                   QUESTIONS SUBMITTED BY MR. COFFMAN

    Mr. Coffman. Regarding the transition of civil oriented Space 
Situational Awareness (SSA) services from USSTRATCOM to the Department 
of Commerce (DOC), as suggested in the House Science Committee's 
legislation a. How will the handoff occur and what is the estimated 
timeframe for such a transition? What criteria will be used to 
determine that the civil DOC SSA system is ready for operations? b. 
Will the current USSTRATCOM SSA system be available as a backup to the 
civil DOC SSA system, and vice versa? Will USSTRATCOM space object 
tracking sensors, including the Space Fence, be used by the civil DOC 
SSA system? If so, how will the military sensors be integrated with the 
DOC? c. How will all global satellite owner/operators be incentivized 
to participate in the civil DOC SSA and Space Traffic Coordination 
(STC) programs?
    General Hyten. Although a timeframe and detailed specifics of 
transitioning inherently non-military space traffic management 
functions to the DOC are still being finalized, USSTRATCOM has fully 
partnered with the DOC, to ensure a smooth, efficient and most 
importantly, safe hand-off. By year-end, both Departments will jointly 
provide a progress report to the National Space Council detailing 
requirements for a successful transition . . . to include a timeline 
for transition, a construct for managing the provision of basic SSA 
data; assessing the statutory and regulatory changes required; and 
maintaining the US space catalog while making portions releasable (via 
DOC) to the public.
    b. USSTRATCOM will continue to maintain the authoritative US space 
catalog and to provide military-unique SSA services upon DOC developing 
its indigenous STM capabilities. As part of this effort, we will 
investigate providing backup capabilities for DOC. The DOC will make 
publically available portions of the authoritative catalog which DOD 
will continue to maintain. We expect a variety of DOD, civil, Allied, 
and commercial sensors will contribute data which will be used to form 
DOC's publically releasable catalog.
    c. We anticipate global satellite owner/operators wanting to 
leverage DOC capabilities out of their own best interest just as they 
use the USSTRATCOM capabilities today. This information will preserve 
their ability to utilize the space domain while minimizing the risk 
from orbital debris.
    Mr. Coffman. We have very important assets in my district that 
contribute to the Space Situational Awareness mission, and it is clear 
that DOD's SSA requirements will be increasing in the future given our 
space control plans. How will the administration's new Space Traffic 
Management Policy help you better prioritize DOD resources to meet DOD 
requirements?
    General Hyten. While many details concerning the increased 
Department of Commerce role in SSA remain under development, by moving 
any inherently non-military activities to a civil agency I will be able 
to re-prioritize my resources to focus on meeting DOD requirements. 
These include:
    <bullet>  Strengthen intelligence collection, analysis, and sharing 
to effectively assess potential adversary space, counterspace 
capabilities vulnerabilities and intentions
    <bullet>  Acquire enhanced SSA capabilities and leverage commercial 
and allied/partner capabilities to provide Indications & Warning (I & 
W) of objects in space
    <bullet>  Achieve full operational capability of the National Space 
Defense Center and continue development of infrastructure to allow 
command and control of space warfighting capabilities
    <bullet>  Pivot SSA capabilities from routine catalog maintenance 
to more dynamic, search-based situational awareness with increased 
focus on potential hostile activity. This will enhance our ability to 
Protect and Defend the space domain and provide space effects for 
warfighters around the world
    <bullet>  Deter, and-when necessary--defeat adversary space and 
counterspace threats.
    Mr. Coffman. Given that the DOD has already negotiated more than 60 
different agreements with commercial and international entities, what 
is your plan to smoothly transfer those contracts to the Department of 
Commerce to minimize service disruption? Do you believe that you will 
need to maintain mil-to-mil agreements for SSA, how are you thinking 
about that framework of international military cooperation in the SSA 
realm for the future? a. What is your assessment today of the 
Department of Commerce's ability to manage these authorities? Do they 
have the proper resources and personnel and what is your opinion on 
what is needed to get them there? b. What are the implications of an 
immediate move of these situational space awareness (SSA) authorities 
from DOD to the Department of Commerce? Are you concerned that hiccups 
in a transition may damage the United States position as the lead 
provider of global SSA?
    General Hyten. As of 21 Sep 18, USSTRATCOM has 88 agreements with 
governments, commercial satellite owner operations, and service 
providers. For military-to-military agreements, USSTRATCOM will 
continue to have a significant role, however, many SSA sharing 
agreements are not inherently military. Consequently, USSTRATCOM is 
working closely with the Department of Commerce (DOC) to ensure an 
efficient and smooth transition of these non-military U.S. agreements 
with civil and commercial spacefarers. Though many details remain under 
development, a future where the DOC is responsible for negotiating, 
concluding, and executing SSA sharing agreements with commercial 
entities is indeed achievable. While DOC grows its capabilities, 
USSTRATCOM is fully committed to supporting our commercial, civil and 
international partners. We have no intention of transferring these 
responsibilities before DOC is prepared to take them on. I am not 
concerned about the transition because I have faith in the men and 
women executing this mission.
    Mr. Coffman. Are you concerned this new need for space funding will 
cannibalize from NASA budgets?
    Mr. Bridenstine. Space Policy Directive-3 (SPD-3), National Space 
Traffic Management Policy, recognizes that after more than 60 years of 
human space activities, orbital debris has become a serious problem to 
space operations. SPD-3 highlighted the need to advance space 
situational awareness and improve the fundamental knowledge of the 
space environment, such as the characterization of small debris. NASA 
will continue to prioritize requirements within available budget 
constraints, while striving to achieve SPD-3 objectives.
    Mr. Coffman. Regarding the transition of civil oriented Space 
Situational Awareness (SSA) services from USSTRATCOM to the Department 
of Commerce (DOC), as suggested in the House Science Committee's 
legislation, a. How will the handoff occur and what is the estimated 
timeframe for such a transition? What criteria will be used to 
determine that the civil DOC SSA system is ready for operations? b. 
Will the current USSTRATCOM SSA system be available as a backup to the 
civil DOC SSA system, and vice versa? Will USSTRATCOM space object 
tracking sensors, including the Space Fence, be used by the civil DOC 
SSA system? If so, how will the military sensors be integrated with the 
DOC? c. How will all global satellite owner/operators be incentivized 
to participate in the civil DOC SSA and Space Traffic Coordination 
(STC) programs?
    Secretary Ross. [The information was not available at the time of 
printing.]
    Mr. Coffman. Given that the DOD has already negotiated more than 60 
different agreements with commercial and international entities, what 
is your plan to smoothly transfer those contracts to the Department of 
Commerce to minimize service disruption? Do you believe that you will 
need to maintain mil-to-mil agreements for SSA, how are you thinking 
about that framework of international military cooperation in the SSA 
realm for the future? a. What is your assessment today of the 
Department of Commerce's ability to manage these authorities? Do they 
have the proper resources and personnel and what is your opinion on 
what is needed to get them there? b. What are the implications of an 
immediate move of these situational space awareness (SSA) authorities 
from DOD to the Department of Commerce? Are you concerned that hiccups 
in a transition may damage the United States position as the lead 
provider of global SSA?
    Secretary Ross. [The information was not available at the time of 
printing.]
    Mr. Coffman. How much will this new program cost in year one, and 
how will these costs grow in the out-years?
    Secretary Ross. [The information was not available at the time of 
printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. HUNTER
    Mr. Hunter. The 2013 National Space Transportation Policy calls for 
the use of U.S. rockets for U.S. government payloads, with some minor 
exceptions that perhaps should be revisited anyway. President Trump's 
Space Policy Directive-2 directs the executive branch to ``encourage 
American leadership in space'' and ``promote economic growth.'' The 
U.S. currently has a competitive space launch industry, yet NASA 
payloads continue to fly on foreign launch vehicles, even those that 
are subsidized by foreign governments. Could NASA better promote the 
goals of the National Space Transportation Policy and Space Policy 
Directive 2 by using American rockets to launch American satellites? 
Should we have a ``Buy American, Fly American'' policy?
    General Hyten, as DOD looks to purchase more commercial data and 
services, do you agree that these should be purchased from entities 
that launch from American spaceports?
    General Hyten. The U.S. operates in a unique and contested space 
domain where all opportunities must be utilized. This includes 
leveraging our partner nations, if necessary, to increase 
responsiveness and capabilities. While I firmly believe the nation 
should maintain the ability to launch a vast majority of its payloads, 
such restrictions may limit the responsiveness and capabilities 
necessary to meet increasingly dynamic DOD requirements. The 
President's National Strategy for Space addresses this issue. It 
stipulates the National Space Council develop a plan to remove 
barriers, streamline regulations, and reduce bureaucratic hurdles to 
commercial space companies, taking into account national security/
public safety. Furthermore, the strategy directs Departments and 
Agencies to ``promote conditions that result in a thriving and 
competitive domestic space industry'' and ``ensure the health of the 
industrial base to support required activities while protecting 
critical U.S. technologies and capabilities.''
    Mr. Hunter. Administrator Bridenstine, the 2013 National Space 
Transportation Policy calls for the use of U.S. rockets for U.S. 
government payloads, with some minor exceptions that perhaps should be 
revisited anyway. President Trump's Space Policy Directive-2 directs 
the executive branch to ``encourage American leadership in space'' and 
``promote economic growth.'' The U.S. currently has a competitive space 
launch industry, yet NASA payloads continue to fly on foreign launch 
vehicles, even those that are subsidized by foreign governments. Could 
NASA better promote the goals of the National Space Transportation 
Policy and Space Policy Directive-2 by using American rockets to launch 
American satellites? Should we have a ``Buy American, Fly American'' 
policy?
    Mr. Bridenstine. NASA believes existing statute and policy supports 
a ``Buy American Fly American'' objective. NASA complies with 51 USC 
50131, the 2013 National Space Transportation Policy, and Space Policy 
Directive-2 for the launch services it procures and uses in support of 
Agency payload missions, with regard to both the launch vehicle and the 
provider of the launch service. 51 USC Sec. 50131 requires the U.S. 
Government to procure space transportation services from domestic 
commercial providers, with a few specific exceptions. The National 
Space Policy also requires the U.S. Government to use U.S. commercial 
space transportation services. NASA procures launch services in 
accordance with existing law and policy. In addition, NASA does not buy 
foreign launch vehicles for the launch of its satellites or science 
missions. United States Government payloads are to be launched on space 
launch vehicles manufactured in the United States, unless exempted by 
the Director of the Office of Science and Technology Policy and the 
Assistant to the President for National Security Affairs through an 
interagency process. This policy, however, does not apply to use of 
foreign launch vehicles on a no-exchange-of-funds basis to support the 
following: flight of scientific instruments on foreign spacecraft, 
international scientific programs, or other cooperative government-to-
government programs. A primary example of the application of this 
exception is the James Webb Space Telescope (JWST), for which the 
European Space Agency (ESA) has agreed to provide an Ariane 5 launcher 
and associated launch services to NASA as part of the European 
contribution to the mission.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. MITCHELL
    Mr. Mitchell. Administrator Bridenstine, you testified that the 
Federal Aviation Administration (FAA) has already been involved in 
discussions about Space Situational Awareness (SSA) and Space Traffic 
Management (STM). Can you detail how the National Aeronautical and 
Space Administration has worked with the Department of Transportation 
and the FAA previously--both during your tenure and before
    Mr. Bridenstine. The FAA has held informal discussions with NASA, 
among other space operators, about the Agency's internal methods for 
conjunction assessment risk analysis for both robotic and human 
spacecraft. However, these information exchanges were all informal; 
there is no formal agreement between NASA and the FAA focused on SSA or 
STM activities.
    Mr. Mitchell. You testified that you support the Department of 
Commerce leading this mission as Space Policy Directive-3 calls for, 
but you also acknowledged that the FAA has special expertise in 
managing air traffic already. How does your agency intend to work with 
the FAA on SSA and STM moving forward?
    Mr. Bridenstine. Under the auspices of SPD-3, NASA is leading an 
interagency effort to update the U.S. Government Orbital Debris 
Mitigation Standard Practices so that that regulatory agencies--
Departments of Transportation and Commerce or the Federal 
Communications Commission--have a sound scientific and technical basis 
for developing orbital debris mitigation policies and regulations for 
their respective commercial licensing regimes. NASA also has expertise 
in conjunction assessment risk analysis within our human and robotic 
space missions and will provide inputs relative to best practices to 
help inform DOT and DOC efforts.
    Mr. Mitchell. General Hyten testified that when it comes to space, 
every element of the government is involved and that means there are 
going to be seams. He said that the seams are best addressed by 
establishing clear authorities and responsibilities. Can you provide 
more detail on how authorities and responsibilities are going to be 
handled among the partners identified in Space Policy Directive-3, 
especially the Department of Transportation?
    Mr. Bridenstine. NASA would respectfully defer to the SPD-3, the 
first National Space Traffic Management Policy for a detailed and 
comprehensive outline of roles and responsibilities within the 
interagency, both currently and in future, as the Department of Defense 
transitions some roles to the Department of Commerce. The Department of 
Transportation will retain its current role of regulation of commercial 
launch, landing and spaceports.
    Mr. Mitchell. Both space and traditional commercial airspace 
traffic have some interplay, how are you resolving that issue? How are 
you working with FAA to address that specific seam?
    Mr. Bridenstine. Launch and landing are where spaceflight 
interfaces with the U.S. National Airspace and its air traffic. NASA is 
a partner in a four-agency coordination group (Air Force Space Command, 
National Reconnaissance Office, FAA, NASA) that consider, among other 
launch and landing topics, how to address joint use between the launch 
ranges and the National Airspace as the number of commercial launch 
ranges and the frequency of commercial space launches is expected to 
increase.
    Mr. Mitchell. How does NASA envision Space Situational Awareness 
and Space Traffic Management playing out in practice? Will this be 
handled by a government agency or is this an authority that could be 
given to another type of non-governmental entity?
    Mr. Bridenstine. The SPD-3 outlines a thoughtful and practical 
approach for implementing an improved future construct for Space 
Traffic Management, including Space Situational Awareness. SPD-3 does 
not limit involvement in STM and SSA activities and products to 
government agencies. As with any proposed approach, NASA and the rest 
of the interagency will make adjustments along the way as appropriate 
and as circumstances warrant.
    Mr. Mitchell. Administrator Bridenstine testified that the Federal 
Aviation Administration (FAA) has already been involved in discussions 
about Space Situational Awareness (SSA) and Space Traffic Management 
(STM). Can you detail how the Department of Commerce has worked with 
the Department of Transportation and the FAA--both during your tenure 
and before?
    Secretary Ross. [The information was not available at the time of 
printing.]
    Mr. Mitchell. Space Policy Directive-3 makes the Department of 
Commerce the lead agency for Space Situational Awareness and Space 
Traffic Management, but it also calls on them to cooperate with other 
agencies. The Federal Aviation Administration at the Department of 
Transportation already has unique expertise in commercial airspace 
management. How does the Department of Commerce plan to work with them 
on this issue moving forward?
    Secretary Ross. [The information was not available at the time of 
printing.]
    Mr. Mitchell. General Hyten testified that when it comes to space, 
every element of the government is involved and that means there are 
going to be seams. He said that the seams are best addressed by 
establishing clear authorities and responsibilities. Can you provide 
more detail on how authorities and responsibilities are going to be 
handled among your partners identified in Space Policy Directive-3, 
especially the Department of Transportation?
    Secretary Ross. [The information was not available at the time of 
printing.]
    Mr. Mitchell. Both space and traditional commercial airspace 
traffic have some interplay, how are you resolving that issue? How are 
you working with FAA to address that specific seam?
    Secretary Ross. [The information was not available at the time of 
printing.]
    Mr. Mitchell. How does the Department of Commerce envision Space 
Situational Awareness and Space Traffic Management playing out in 
practice? Will this be handled by a government agency or is this an 
authority that could be given to another type of non-governmental 
entity?
    Secretary Ross. [The information was not available at the time of 
printing.]

                                  <all>
</pre></body></html>
